<html>
<title> - THE EMERGING DRUG THREAT FROM HAITI</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                  THE EMERGING DRUG THREAT FROM HAITI

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2000

                               __________

                           Serial No. 106-194

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                   U.S. GOVERNMENT PRINTING OFFICE
70-438                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 12, 2000...................................     1
Statement of:
    Fauriol, George, Center for Strategic and International 
      Studies....................................................    87
    Steinberg, Ambassador Donald, Special Haiti Coordinator, U.S. 
      Department of State; Carl Alexandre, Director, Overseas 
      Prosecutorial Development Assistance and Training [OPDAT], 
      Criminal Division, Department of Justice; Rear Admiral Ed 
      J. Barrett, USCG, Director, Joint Interagency Task Force 
      [JIATF] East; Michael Vigil, Senior Agent in Charge, 
      Caribbean, U.S. Drug Enforcement Administration; and John 
      Varrone, Acting Deputy Assistant Commissioner, Office of 
      Investigations, U.S. Customs Service.......................     9
Letters, statements, etc., submitted for the record by:
    Alexandre, Carl, Director, Overseas Prosecutorial Development 
      Assistance and Training [OPDAT], Criminal Division, 
      Department of Justice, prepared statement of...............    22
    Barrett, Rear Admiral Ed J., USCG, Director, Joint 
      Interagency Task Force [JIATF] East, prepared statement of.    37
    Fauriol, George, Center for Strategic and International 
      Studies, prepared statement of.............................    90
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     6
    Steinberg, Ambassador Donald, Special Haiti Coordinator, U.S. 
      Department of State, prepared statement of.................    12
    Varrone, John, Acting Deputy Assistant Commissioner, Office 
      of Investigations, U.S. Customs Service, prepared statement 
      of.........................................................    64
    Vigil, Michael, Senior Agent in Charge, Caribbean, U.S. Drug 
      Enforcement Administration, prepared statement of..........    51

 
                  THE EMERGING DRUG THREAT FROM HAITI

                              ----------                              


                       WEDNESDAY, APRIL 12, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m. in 
room 2203, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica and Gilman.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Lisa Wandler, clerk; Charley Diaz, congressional 
fellow, Cherri Branson, minority counsel; and Jean Gosa and 
Earley Green, minority assistant clerk.
    Mr. Mica. Good morning. I would like to call this hearing 
of the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order.
    We are going to go ahead and begin. There is a markup that 
some of our Members are involved in, but we do have two panels 
of witnesses to hear from, and we can proceed.
    The order of business will be my opening remarks and 
statement, and then, as other Members join us, they can either 
give their opening statements or we will submit them for the 
record. We will leave the record open for a period of 2 weeks, 
without objection, for additional statements or materials 
submitted as a result of this hearing from witnesses or those 
interested in providing statements, information for the record.
    Today's hearing is titled, ``The Emerging Drug Threat from 
Haiti.'' That is the subject of our concern here as an 
investigations and oversight subcommittee of the House 
Government Reform Committee.
    Five years after the United States military intervened to 
restore democracy in Haiti, and nearly $4 billion later, Haiti 
has become the center of Caribbean drug trafficking. Many of 
these illegal drugs end up on our streets and in schoolyards 
across the United States. Today, the subcommittee will exercise 
its oversight responsibility to assess the current drug threat 
from Haiti and to examine the failure of wasteful spending of 
hundreds of millions of taxpayer dollars which were expended to 
reform Haiti's judicial system and national police.
    What have American taxpayers gotten for their money? A lot 
of questions are now being raised. The answer appears to be a 
flood of deadly narcotics which are now washing up on our 
shores.
    As one of today's witnesses wrote in a recent Wall Street 
Journal article, ``Haiti is a political basket case.'' The Los 
Angeles Times recently characterized Haiti as ``Increasingly 
lawless, corrupt, and poor, and also pivotal to a multi-
billion-dollar business in cocaine.'' And a recent Miami Herald 
article linked corruption and drug trafficking to an American 
propped-up political bureaucracy in Haiti.
    Furthermore, a recent report of the Congressional Research 
Service states that the unemployment rate in Haiti has now 
reached 80 percent.
    Despite years of United States' assistance totaling 
billions of dollars, Haiti is now the major drug transshipment 
country for the entire Caribbean region, funneling huge 
shipments of cocaine from Colombia to the United States. Some 
have called Haiti the ``crossroads of the Caribbean drug 
trade.''
    DEA estimates that last year 67 metric tons of cocaine 
moved through Haiti, a 24 percent increase over 1998. This 
cocaine poison eventually makes its way to the United States 
and destroys American lives.
    The United States drug czar now estimates that there are 
over 52,000 drug-related deaths in this country every year. The 
social cost of illegal drugs--some of the lower figures are 
$110 billion a year, and I have seen that figure, with 
everything taken into consideration, almost double. More 
importantly, over half of our Nation's young people will try 
illegal drugs before they finish high school.
    Haiti is now responsible for fully 14 percent of all the 
cocaine entering the United States from Colombia. How did we 
come to this point? On one hand, Haiti's location between the 
United States and the major South American drug-producing 
countries makes it a very logical transshipment point for 
illegal narcotics. Also, as the poorest country in the western 
hemisphere, Haiti is extremely vulnerable to official 
corruption.
    On the other hand, we spent hundreds of millions of 
taxpayer dollars to reform the judicial system and rebuild the 
national police force from the ground up.
    We must ask: have the money and efforts made a difference? 
Unfortunately, Clinton-type nation building has, once again, 
had a disastrous failure.
    The sad fact is that much, and probably most, of this 
taxpayer money has been wasted. A recent CBS News segment that 
aired on 60 Minutes was dedicated to this issue. The reporters 
visited Haiti to explore the judicial reform program funded by 
the U.S. Agency for International Development [USAID]. CBS 
wanted to know what has the United States gotten for its effort 
and also for its money.
    Their conclusion was not much. They discovered lawlessness, 
bodies in the street, no police in sight, and hundreds of 
Haitian citizens locked up in pretrial confinement in 
overcrowded jails with no system to identify even what crimes 
these people were accused of.
    On the topic of drug smuggling, the drug traffickers are 
very aware of the absence of an adequate defense along Haiti's 
southern coastline. Colombian drug lords have once again 
shifted a large portion of their operations, and they have 
chosen Haiti as a site of those operations.
    According to DEA, our Drug Enforcement Administration, the 
primary method for smuggling large quantities of cocaine 
through the Caribbean to the United States is on maritime 
vessels. Colombian drug traffickers are now using so-called 
``go fast boats'' to move cocaine, as much as a ton at a time, 
from the north coast of Colombia to the south coast of Haiti. 
Drugs are then transferred over land to the Dominican Republic 
for further shipment to the United States, including routing 
through Puerto Rico, and also to Europe.
    Also, approximately a third of the Haitian drug flow occurs 
through air drops into mountainous regions of the country.
    Much of the interdiction and enforcement work falls on the 
backs of our domestic law enforcement agencies, including DEA, 
the Customs Service, the U.S. Coast Guard, and also support 
from our Department of Defense. These agencies work to support 
goal four of the national drug control strategy, which is ``to 
shield America's air, land, and sea frontiers from the drug 
threat.'' That is the mission.
    Sadly, funds and resources provided by Congress several 
years ago to Puerto Rico and that area of the Caribbean have 
been shifted or expired. I was briefed on this during a short 
visit to Puerto Rico. Our staff also went down there recently. 
We were alarmed to find out that funds and programs that were 
supported financially by the current Speaker of the House, who 
had responsibility as chair of the subcommittee with oversight 
responsibility, also put together the program for supplemental 
funding for these programs. We found that much of that effort 
has evaporated or resource has been diverted from that region 
of the hemisphere, and once again we find ourselves at risk 
with an incredible sheer volume of hard narcotics coming in 
through Haiti.
    This tragic situation is worsened by other shortfalls in 
Clinton administration efforts. We have lost our air base in 
Panama, and we have ceded control of this strategic area 
without first obtaining replacement bases in a timely fashion 
for continued effective air surveillance. Air surveillance is 
so key to both finding the source of illegal narcotics, and 
also obtaining the assistance, cooperation of other nations in 
interdicting these drugs as they leave the source and before 
they reach our shores.
    With the absence of U.S. intelligence sharing, due, in 
part, to the reduced air coverage following the forced closure 
of Howard Air Force Base in Panama, our counter drug efforts in 
the region have been further crippled.
    The General Accounting Office has documented a dramatic 
reduction in DOD assets that are committed to reducing the 
supply of illegal drugs in America. This is a report that I 
requested. It was published at the end of 1999, December 1999.
    Among the GAO report findings are the following covering 
the period from 1992 to 1999, which we asked them to review:
    The report states ``the number of flight hours dedicated to 
detecting and monitoring illegal drug shipments declined from 
approximately 46,000 to 15,000, or some 68 percent.'' If there 
has been since 1992 any war on drugs, it must be a figment of 
fantasy and imagination from this administration. I think this 
report clearly shows that the war on drugs was, in fact, closed 
down, not only by the 68 percent reduction in flight hours 
dedicated to detecting and monitoring illegal drug shipments, 
but also the second major point of the investigation. GAO said 
the number of ship days declined from about 4,800 to about 
1,800, which was a 62 percent reduction.
    DOD has diverted resources to other priorities and has 
apparently lost the will and commitment to win this battle.
    The findings of this GAO report are just another indicator 
of the Clinton administration's lack of commitment to 
effectively combat the scourge of illegal drugs and stem the 
unbelievable tide of cocaine and heroin that is now transiting 
through the Caribbean.
    What is Haiti doing? Is Haiti doing all that it can as a 
sovereign nation? Is it fully cooperating with the United 
States in the war on drugs?
    Well, President Clinton decertified Haiti this year, which 
was an appropriate step. Then, he granted the country a 
national interest waiver, in essence nullifying the 
decertification. He took this action, despite the fact that the 
Haitian government has not passed much-needed counter narcotics 
legislation. He took this step, despite the fact that 
intelligence reports that we have, press accounts, and other 
documentation from our anti-narcotics forces and United States 
agencies indicates that corruption from illegal narcotics has 
now reached the very highest offices and officials in Haiti.
    Why hasn't the Haiti parliament passed this needed 
legislation? One reason is that the current Haitian President 
Preval unilaterally shut down the Haitian parliament.
    The ratio of Haitian police to population is one of the 
lowest in the world, and the Nation's counter-narcotics police 
unit, the BLTS, numbers only 24 personnel, while serving a 
population of 8 million citizens.
    Beginning in November 1998, democratic elections in Haiti 
were repeatedly postponed. Once again, in a dictatorial 
fashion, President Preval has postponed elections for a third 
time, and I understand that is now put out until May of next 
year.
    Indeed, all of this is a disappointment, particularly when 
we have invested billions and billions of American dollars 
propping up one corrupt administration in Haiti for now another 
corrupt administration.
    I am conducting this important hearing today because the 
ultimate success or failure of Haiti's governmental 
institutions and its commitment to counterdrug efforts directly 
impact us here at home. Last year, this subcommittee held 28 
hearings, 16 on drug policy and related topics--more than any 
other House subcommittee or committee. This year I intend to 
continue our oversight in this area.
    Despite some differences, I know that members of the 
committee on both sides of the aisle are equally committed to 
the successful implementation of our national drug control 
strategy.
    The United States and our hemisphere are facing some of the 
greatest challenges ever to our security interests. Just look 
at the turmoil in Colombia. I think Haiti is ripe for even 
further degradation in its situation with domestic turmoil, 
with corruption, and with drug interests taking further hold on 
this small, poor island nation.
    I think we must do more to protect our hemisphere and our 
own national security, including the security of our homes and 
communities.
    In order to succeed, we must keep an eye on the ball and 
also undertake a strategic and defensive and decisive approach.
    We certainly must ensure accountability from those 
receiving hard American taxpayer dollars. We owe it to the 
American public, as well as to the people of Haiti.
    I wish to thank our witnesses for testifying before us 
today. We look forward to hearing more about the challenging 
situation in Haiti and what the United States and Haiti can and 
should do about it and what our strategy is to go from this 
point forward.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T0438.001
    
    [GRAPHIC] [TIFF OMITTED] T0438.002
    
    [GRAPHIC] [TIFF OMITTED] T0438.003
    
    Mr. Mica. At this time we have our first panel of 
witnesses. Panel one today consists of Ambassador Don 
Steinberg, who is the special Haiti coordinator under the U.S. 
Department of State; Mr. Carl Alexandre, the director of 
Overseas Prosecutorial Development Assistance and Training 
[OPDAT], the Criminal Division of the Department of Justice. We 
also have Rear Admiral Ed J. Barrett, and he is with the U.S. 
Coast Guard, and he is Director of the Joint Interagency Task 
Force [JIATF] East; Mr. Michael Vigil, senior agent in charge 
in Miami [SIC] of the U.S. Drug Enforcement Administration; and 
Mr. John Varrone, the Acting Deputy Assistant Commissioner, 
Office of Investigations of the U.S. Customs Service.
    I will inform our witnesses that this is an investigations 
and oversight subcommittee of Congress, and, as such, we do 
swear in our witnesses, which I will do in just a minute.
    Additionally, if you have lengthy statements, 
documentation, or material which you would like entered into 
the record, we would be glad to do so upon a request and 
unanimous consent of the subcommittee.
    With those opening remarks, we are going to go ahead and 
proceed and begin hearing from our witnesses.
    I will first ask you to stand and be sworn.
    [Witnesses sworn.]
    Mr. Mica. Witnesses answered in the affirmative.
    I welcome you and thank you for your participation today.
    With that we'll first recognize Ambassador Don Steinberg. 
He is the special Haiti coordinator from the U.S. Department of 
State.
    Welcome, Sir. You are recognized.

   STATEMENTS OF AMBASSADOR DONALD STEINBERG, SPECIAL HAITI 
    COORDINATOR, U.S. DEPARTMENT OF STATE; CARL ALEXANDRE, 
  DIRECTOR, OVERSEAS PROSECUTORIAL DEVELOPMENT ASSISTANCE AND 
  TRAINING [OPDAT], CRIMINAL DIVISION, DEPARTMENT OF JUSTICE; 
 REAR ADMIRAL ED J. BARRETT, USCG, DIRECTOR, JOINT INTERAGENCY 
TASK FORCE [JIATF] EAST; MICHAEL VIGIL, SENIOR AGENT IN CHARGE, 
   CARIBBEAN, U.S. DRUG ENFORCEMENT ADMINISTRATION; AND JOHN 
   VARRONE, ACTING DEPUTY ASSISTANT COMMISSIONER, OFFICE OF 
              INVESTIGATIONS, U.S. CUSTOMS SERVICE

    Ambassador Steinberg. Thank you, Mr. Chairman. I welcome 
the opportunity to be here today to talk about recent events in 
Haiti and our mutual efforts to address some of the problems 
that you've talked about already.
    I have submitted a statement for the record.
    Mr. Mica. Without objection, the entire statement will be 
made part of the record.
    Ambassador Steinberg. And so I wanted just to take a few 
moments to review some of the elements in that statement.
    I have been in the position as special Haiti coordinator 
just since November, but have already made six trips to Haiti, 
and it is clear to me that we have a huge challenge ahead of us 
in helping Haiti move down the road in democracy, rule of law, 
and economic development. That road has been bumpy at best so 
far. There are no quick fixes to helping a country overcome the 
legacies of two centuries of authoritarian regime, rapacious 
military forces, and class divisions.
    Clearly, many of the expectations that we all shared after 
the democratically elected government was restored in 1994 have 
not been met.
    My testimony highlights some of the areas of frustration, 
including halting progress on human rights, and, as you've 
said, the sad state of the judiciary and prison systems.
    One key area of disappointment has, indeed, been the 
growing problem of drug trafficking. Cocaine trafficking now 
totals some 14 percent of the cocaine entering the United 
States. I agree that this is a direct national security threat 
to this country.
    DEA, Customs, and Justice will describe their growing 
programs in a moment, which I believe show the seriousness with 
which this administration is attacking the threat. They will 
discuss our enhanced permanent anti-drug presence in Haiti and 
new efforts to counter air drops, freighter shipments, and 
money laundering.
    Within the State Department, as well, the Bureau of 
International Narcotics and Law Enforcement is the lead bureau 
for training programs and border cooperation.
    I agree, as well, that narcotrafficking and corruption are 
direct threats to Haiti as well, including the young and new 
institutions of the national police, the judiciary, and the 
government itself. This is one of the reasons that we focus so 
much attention on addressing these very institutions.
    There have been some successes. The government of Haiti has 
cooperated in several major international counterdrug 
operations and has worked with the Dominican Republic to stem 
the flow of drugs over that land border. It has implemented a 
maritime drug interdiction agreement, even without formal 
legislation, and the Haitian National Police officials involved 
in drug-related corruption have been fired.
    At the same time, we are disappointed in the absence of 
full cooperation, which is shown by the large drop in drug 
seizures. Last year, despite increased drug transit levels, we 
were disappointed by the police's failure to double the size of 
the anti-drug unit, as they had planned, the lack of vigorous 
investigation of reported corruption, and the failure to 
prosecute rather than simply fire most police officers 
identified in drug-related corruption.
    Indeed, as you stated, the lack of a parliament, which was 
disbanded some 16 months ago, means that no new laws on money 
laundering, anti-corruption, or reorganization are being 
adopted. Indeed, we have spent a lot of effort to help restore 
that parliament, working full time to promote free and fair 
elections in the climate of security.
    In this regard, the announcement yesterday that a date has 
been established for elections--and this is a date in May of 
this year, as opposed to next year--having been worked out with 
the electoral authorities. This is an important development, 
but we must also see an end to delay and to the violence and 
intimidation that is now characterizing the political scene in 
Haiti.
    We condemn those elements in Haiti that are now using 
violence and strong-arm tactics to derail democracy.
    Mr. Chairman, there has been progress in Haiti since the 
early 1990's when a brutal military regime in Port-au-Prince 
victimized opposition figures, when tens of thousands of boat 
people were risking their lives to flee the terror, and when 
starvation and suffering were rampant due to capital flight and 
sanctions.
    We can all share some satisfaction in strides to alleviate 
hunger, to build basic institutions in civil society, to 
increase access to education, health care, and family planning, 
to combat environmental decline, and to demobilize the armed 
forces.
    Indeed, this has been an expensive operation. Our estimate 
is that about $2.2 billion has been spent overall in this 
effort, as opposed to the $4 billion figure that some people 
cite, but it has been an expensive operation.
    Despite all the problems that we've identified, I believe 
that we have helped give Haiti the best chance in its history 
to move down the road to democracy and national reconciliation. 
We need to be side by side with Haiti on that road. Our 
national interests are just too strong: promoting democracy 
throughout the western hemisphere, addressing crushing poverty 
on our doorstep, preventing a new flood of illegal migration, 
and, indeed, interdicting drug trafficking.
    If we can all resist the easy solace of fatigue and 
frustration, I believe we can achieve these reasonable goals. I 
look forward to working with this committee in this vital 
effort.
    Thank you.
    Mr. Mica. Thank you.
    [The prepared statement of Ambassador Steinberg follows:]

    [GRAPHIC] [TIFF OMITTED] T0438.004
    
    [GRAPHIC] [TIFF OMITTED] T0438.005
    
    [GRAPHIC] [TIFF OMITTED] T0438.006
    
    [GRAPHIC] [TIFF OMITTED] T0438.007
    
    [GRAPHIC] [TIFF OMITTED] T0438.008
    
    [GRAPHIC] [TIFF OMITTED] T0438.009
    
    [GRAPHIC] [TIFF OMITTED] T0438.010
    
    Mr. Mica. Thank you.
    We will now hear from Mr. Alexandre, the Director of 
Overseas Prosecutorial Development Assistance and Training for 
the Department of Justice.
    You are recognized.
    Mr. Alexandre. Thank you, Mr. Chairman. I welcome the 
opportunity to address this subcommittee.
    As with Ambassador Steinberg, I have also submitted written 
remarks.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    Mr. Alexandre. Thank you, sir.
    As members of this subcommittee are no doubt aware, in 
Haiti we have been confronted with the most fundamental of 
problems: no tradition of effective of impartial police, 
criminal laws and procedures unchanged since the early 19th 
century, and a court system that had never functioned well in 
either civil or criminal context. Mr. Chairman, I know these 
things firsthand, because I participated in the first Justice 
sector assessment in Haiti in 1994 and directed the OPDAT 
program in Haiti from 1995 to mid-1997, when I was made 
Director of my office here in Washington.
    First, I'd like to focus my summary on the activities of 
the International Criminal Investigative Training Assistance 
Program, ICITAP for short. That's the unit within the Justice 
Department that trains police investigators.
    Since 1994, ICITAP has led the United States' effort to 
build a Haitian National Police. The HNP represents, Mr. 
Chairman, the first professionally trained civilian and 
constitutionally based entity in Haiti. Before the creation of 
that entity, there had never been a professional civilian 
police force in the country, and one had to be built from 
scratch.
    ICITAP's work has evolved in stages. The first stage was to 
focus on public security, and ICITAP helped train and deploy 
the international police monitors to respond to violence.
    The second and most ambitious phase of ICITAP's work in 
Haiti was the recruitment and deployment of a core of 5,000-
plus police officers. Because this police force was being 
established from scratch, ICITAP worked to develop the basic 
organizational, procedural, and budgetary framework needed for 
its new entity.
    Now in its third phase, ICITAP's program focuses on 
sustainability, and that effort has been conducted by placing 
technical advisors to assist in developing policies and 
standards throughout the agency.
    Although some progress has been made in creating this 
police agency and establishing the rules of engagement, the 
agency continues to face many significant challenges, not the 
least of which is combating the burgeoning the drug trafficking 
problem in Haiti.
    As you pointed out, Mr. Chairman, the BLTS was established 
in the spring of 1997 with only 25 agents. Its numbers were 
recruited from a pool of HNP agents with less than 18 months of 
police experience.
    Although they have received training from the DEA, the 
French government, and others, this young organization 
continues to suffer problems of professionalism, leadership, 
and one cannot say that the BLTS is playing a significant role 
at this point in the counter-narcotics effort in Haiti.
    On the Justice side, as I mentioned, Mr. Chairman, I was 
part of a team in late 1994 that conducted the initial 
assessment of the Haitian criminal justice system. When we 
arrived there, we found a system which was dysfunctional in 
many respects. The legal codes dated back to the 1830's and had 
undergone little to no change since. Judges and prosecutors 
were poorly trained, poorly paid, and had few resources to do 
their jobs. Many were viewed as corrupt or incompetent.
    The constitutional provision for training and selecting 
judges was never implemented. There was virtually no system of 
case registration or tracking. Prisons were overcrowded, 
largely with pretrial detainees. Men and women, juveniles, were 
all housed together in miserable conditions.
    We recognized very early in 1995 that a significant effort 
would be required to build a criminal justice system which 
functioned at even the basic level of competence, and we 
focused our attention on training activities, we focused our 
attention on support for this institution which never existed, 
which is the Haitian National Judicial College, and we focus 
our attention on developing management and systems.
    With respect to training, I would like to point out, Mr. 
Chairman, that until we arrived in 1995 there was really no 
training for members of the judiciary beyond law school in 
Haiti, and many justices of the peace, who handled many of the 
routine criminal cases, had had no legal training at all. 
Because of our effort, many of them have been trained today.
    We have also, as I have mentioned, supported the Haitian 
National Judicial College, where, in 1997, 60 new judges were 
trained and were appointed to positions of responsibility 
within the judiciary. This fall, we expect a class of 40 new 
judges will be graduating from the school.
    We continue to support the school, joint training programs 
between the police and the magistrates, because both of them 
have investigative responsibilities, but they have had little 
training or useful experience in working together.
    Our plans for the future at the school include training on 
how to investigate and prosecute drug cases, and it also 
includes how to investigate and prosecute corruption cases.
    One of the things that we did in Haiti, Mr. Chairman, is to 
focus our attention on management issues, and we developed a 
case tracking system in Haiti's jurisdictions.
    These training programs and management tools have begun to 
show some results, and I'd like to point out for the committee 
that under Haitian law each jurisdiction is supposed to have 
two sessions, two trial sessions, jury trial sessions per year. 
Two years ago, no jurisdiction met this requirement, but in 
1999, in all the jurisdictions in which we are operating--that 
is 10, excluding Port-au-Prince--met the requirement of having 
jury trial.
    This is small progress, and overall progress in the overall 
criminal justice system is still very limited.
    On the drug prosecution issue, the Haitian Government's 
record is woefully weak. We are aware of one successful 
prosecution for drug trafficking in recent years, in 1998, the 
trial of five Colombians, four of whom were found guilty, the 
other one was found not guilty. The sentence they received by 
U.S. standards was short, and all those who were convicted are 
likely to be released within a year.
    The case tracking system that we've helped develop in Haiti 
shows that the arrest for drug charges is on the rise; however, 
I must report that those arrested remain in pre-trial 
detention.
    The reason that the record is poor on the drug prosecution 
front is for many reasons. First, many cases are dismissed by 
the justices of the peace, and that is contrary to Haitian law, 
which requires that the justice of the peace refer drug cases 
to a prosecutor.
    In addition, cases are dismissed for lack of evidence, 
because generally the drugs which have been seized have not 
been properly preserved.
    Moreover, the current Haitian law on drug trafficking and 
usage, which dates back to 1982, is outmoded and procedurally 
cumbersome. For example, the law requires that specific 
officials of the Haitian Department of Health have to conduct 
the test on the drugs that are seized. There are only two such 
persons qualified to conduct the test in Haiti.
    Another problem that slows down the investigative process 
is the fact that these cases are supposed to be investigated by 
an investigative magistrate, and for a country with 8 million 
people, the size of Maryland, there are only 30 investigative 
magistrates throughout the country.
    Similarly, the 1982 law provides for asset forfeiture, but 
that law, as well, is outdated.
    As everyone has already stated, both you and Ambassador 
Steinberg, these laws need to be revamped, and to do so a 
functioning parliament is needed to act on the legislation.
    In sum, OPDAT and ICITAP have worked hard to strengthen 
Haiti's police and prosecutorial apparatus. While there has 
been some progress, the problems in Haiti's criminal justice 
system are severe and the country is ill-equipped to confront 
what appears to be a serious and growing drug trafficking 
problem.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Alexandre follows:]

    [GRAPHIC] [TIFF OMITTED] T0438.011
    
    [GRAPHIC] [TIFF OMITTED] T0438.012
    
    [GRAPHIC] [TIFF OMITTED] T0438.013
    
    [GRAPHIC] [TIFF OMITTED] T0438.014
    
    [GRAPHIC] [TIFF OMITTED] T0438.015
    
    [GRAPHIC] [TIFF OMITTED] T0438.016
    
    [GRAPHIC] [TIFF OMITTED] T0438.017
    
    [GRAPHIC] [TIFF OMITTED] T0438.018
    
    [GRAPHIC] [TIFF OMITTED] T0438.019
    
    [GRAPHIC] [TIFF OMITTED] T0438.020
    
    [GRAPHIC] [TIFF OMITTED] T0438.021
    
    [GRAPHIC] [TIFF OMITTED] T0438.022
    
    Mr. Mica. We'll now hear from Rear Admiral Ed J. Barrett, 
U.S. Coast Guard. He's the Director of the Joint Interagency 
Task Force [JIATF] East.
    Welcome. You are recognized, sir.
    Admiral Barrett. Good morning, Mr. Chairman.
    I have submitted a statement for the record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    Admiral Barrett. I testified before your subcommittee in 
November 1999 when you held hearings on Cuba's role in drug 
trafficking. At that time, I mentioned that Haiti was a problem 
area in the transshipment of cocaine to the United States. 
Haiti is still a problem, and, in response to the 
subcommittee's inquiry, I have created several charts 
portraying information on suspect air and maritime drug 
trafficking events to Haiti.
    The first flip chart compares the estimated total of 
cocaine flowing from South America to the United States, the 
estimated total of cocaine flowing from South America into the 
Caribbean, and the estimated cocaine flowing from South America 
with the initial destination of Haiti. This is right in line 
with what you mentioned during your statement, sir.
    In consonance with the National Drug Control Strategy and 
SOUTHCOM guidance, the first priority of JIATF East's effort is 
the source zone, primarily southeast Colombia and Peru. The 
second priority is the transit zone, with focus on the eastern 
Pacific and the northern Caribbean region around Puerto Rico.
    Slide two--this chart depicts the suspected air movement of 
cocaine. The numbers of suspected air trafficking events has 
increased substantially over the last few years. This reflects 
the traffickers reaction to the counterdrug operation, Frontier 
Lance, that attacked the go-fast routes between Colombia and 
Haiti in early 1998, causing the traffickers to shift and fly 
over our detection and monitoring maritime assets and fly and 
drop or land in Haiti.
    Mr. Mica. Can I ask a question?
    Admiral Barrett. Yes, sir.
    Mr. Mica. This is air events. That's through the end of 
last year?
    Admiral Barrett. Sir, this is for all of calendar year 
1999. Each one of these red lines represents an air track. It's 
just the northern track, sir. As you can see, a lot of them 
come out of southeastern Colombia, fly through Venezuela on 
their way to the Caribbean.
    Mr. Mica. Is the pattern in Venezuela increasing also from 
that area?
    Admiral Barrett. Yes, sir.
    Mr. Mica. Thank you.
    Admiral Barrett. The pattern of suspected drug trafficking 
aircraft departing Colombia, flying north, and air dropping the 
drugs in and around Haiti, and the return flight south that 
takes them through Venezuela airspace to break contact with 
counterdrug forces is clearly evident. Drug smugglers are 
exploiting the lack of endgame capabilities in Haiti and our 
inability to enter Venezuelan's airspace on their return leg to 
South America.
    Even though we have not had success with endgames in Haiti, 
coordination with the Colombian Air Force has resulted in the 
destruction or seizure of 16 trafficking aircraft returning to 
Colombia, as shown on the table at the bottom of the chart.
    Next slide--this chart depicts the suspected go-fast drug 
smuggling events. The slide clearly shows the pattern of 
departing the Guajiran Peninsula on the northern coast of 
Colombia, then transiting to Haiti. The insert bar graph 
reflects a level of success of Frontier Lance against the go-
fast. You can see that they did drop down in 1998. They're back 
up a little bit in 1999. That's the bar chart in the upper 
right.
    On the maritime side, the table reflects the successful 
seizures of maritime traffickers in the central Caribbean 
corridor and en route to Haiti. The totals there for 1997 are 
4.6 metric tons; for 1998, 6.5 metric tons; and for 1999, 3.2 
metric tons.
    Next slide--the counterdrug operations depicted on this 
chart reflect several operations conducted under the construct 
of JIATF East Regional Campaign Plan, Carib Ceiling. As the 
regional coordinator for counterdrug operations, JIATF East 
coordinates, synchronizes, and integrates counterdrug 
operations. Currently, we cannot conduct CD operations in Haiti 
due to the lack of force protection and support infrastructure. 
The nearly nonexistent police force and judicial system 
compound this constraint. This construct has driven us to an 
operational counterdrug strategy of isolating Haiti.
    These operations reflect our intent to keep the drugs out 
of Haiti as much as possible. Once the drugs are in Haiti, we 
make it as difficult as possible to move the drugs out of Haiti 
toward the United States by concentrating on the secondary flow 
routes.
    These operations are not being conducted on a full-time 
basis, but are executed as the threat emerges and resources 
permit. Coordination among the Interagency is a critical 
component.
    In summary, there are several initiatives underway to 
combat the flow of cocaine into and out of Haiti. First, the 
Interagency is working on an intelligence analysis of the 
secondary flow from Haiti. This will give us the information we 
need to attack secondary flow routes under our Carib Ceiling 
Campaign Plan and counterdrug operations to isolate Haiti.
    Second, with funding provided by the Western Hemisphere 
Drug Elimination Act, which your committee supported, new 
assets that will increase endgame effectiveness against go-
fasts have been put into operation. The U.S. Coast Guard use of 
force from helicopters have completed both day and night 
operational tests with outstanding results, seizing 100 
percent, or six of six, of the go-fasts that they detected 
during these operations.
    In addition, the Coast Guard is currently conducting 
operation tests of a TAGOS vessel outfitted with high-speed, 
deployable pursuit boats [DPBs]. I expect the DPBs will also be 
very successful against go-fasts.
    Third, we are working with the Colombia Air Force to attack 
the southeast Colombia air bridge. With the Puerto Rican ROTHR 
coming online and Plan Colombia being operationalized, we 
intend to go after the air tracks within Colombian airspace and 
prevent them from departing en route to Haiti and other 
Caribbean destinations.
    We also need to continue to work with Venezuela to gain 
their cooperation for overflight of their airspace and to 
assist their Air Force interdict suspect tracks.
    Thank you very much, Mr. Chairman. I'll be glad to answer 
any questions.
    Mr. Mica. Thank you.
    [The prepared statement of Admiral Barrett follows:]

    [GRAPHIC] [TIFF OMITTED] T0438.023
    
    [GRAPHIC] [TIFF OMITTED] T0438.024
    
    [GRAPHIC] [TIFF OMITTED] T0438.025
    
    [GRAPHIC] [TIFF OMITTED] T0438.026
    
    [GRAPHIC] [TIFF OMITTED] T0438.027
    
    [GRAPHIC] [TIFF OMITTED] T0438.028
    
    [GRAPHIC] [TIFF OMITTED] T0438.029
    
    [GRAPHIC] [TIFF OMITTED] T0438.030
    
    [GRAPHIC] [TIFF OMITTED] T0438.031
    
    Mr. Mica. We will withhold questions until we've heard from 
all of the witnesses.
    Next witness is Mr. Michael Vigil. He is the senior agent 
in charge of Miami of the U.S. Drug Enforcement Administration.
    Welcome. You are recognized, sir.
    Mr. Vigil. Actually, it is the Caribbean rather than Miami.
    Mr. Mica. All right.
    Mr. Vigil. Two separate divisions.
    Mr. Mica. All right. We'll put you in the Caribbean. Thank 
you.
    Mr. Vigil. All right.
    Mr. Chairman, members of the subcommittee, I appreciate the 
opportunity to appear today to discuss the issue of drug 
trafficking throughout the Caribbean, and specifically Haiti.
    I would first like to thank the subcommittee for its 
continued support of the Drug Enforcement Administration and 
overall support of drug law enforcement.
    With your permission, I request that my full written 
statement be submitted as part of the official record.
    Mr. Mica. Without objection, so ordered. You may proceed.
    Mr. Vigil. As all of you are aware, the international drug 
syndicates operating throughout our hemisphere are resourceful, 
adaptable, and extremely powerful. The syndicates have an 
unprecedented level of sophistication, and are more powerful 
and influential than any of the organized crime enterprises 
preceding them. Traditional organized crime syndicates 
operating within the United States over the course of the last 
century simply cannot compare to the Colombian and Mexican drug 
trafficking organizations presently functioning in this 
hemisphere. These drug trafficking organizations have at their 
disposal an arsenal of technology, weapons, allies, corrupted 
law enforcement, government officials that enable them to 
dominate the illegal drug market in ways not previously thought 
possible.
    The leaders of these drug trafficking organizations oversee 
a multi-billion dollar cocaine and heroin industry that affects 
every aspect of American life.
    The Caribbean has long been an important transit zone for 
drugs entering the United States and Europe from South America. 
These drugs are transported through the region to both the 
United States and Europe through a wide variety of routes and 
methods.
    The Caribbean also plays an important role in drug-related 
money laundering. Many countries have well-developed offshore 
banking systems and bank secrecy laws that facilitate money 
laundering.
    In countries with less-developed banking systems, money is 
often moved through these countries in bulk shipments of cash, 
the ill-gotten proceeds of selling illicit drugs in the United 
States.
    The ultimate destination of the currency or assets is other 
Caribbean countries our South America. Due primarily to its 
mere location, in addition to uncontrolled points of entry and 
internal instability, Haiti has emerged as a significant 
transshipment destination for drugs. Recent statistics released 
by the Interagency assessment of cocaine movement, in which DEA 
participates, indicates that approximately 15 percent of the 
cocaine entering the United States transits either Haiti or the 
Dominican Republic. Vast quantities of narcotics from South 
America arrive in Haiti after being transported across the 
poorest border with the Dominican Republic and then shipped on 
to Puerto Rico.
    Just 80 miles from the east coast of Hispaniola, Puerto 
Rico is easily accessible from Hispaniola by either plane or 
boat.
    Once the shipment of cocaine, whether smuggled from Haiti 
or the Dominican Republic by maritime, air, or commercial cargo 
reaches Puerto Rico, it is unlikely to be subjected to further 
United States Customs inspections in route to the continental 
United States.
    Haiti is strategically located in the central Caribbean, 
occupying the western half of the island of Hispaniola, which 
it shares with the Dominican Republic. At 27,750 square 
kilometers, the country is slightly larger than the State of 
Maryland. With the Caribbean to the south and the open Atlantic 
Ocean to the north, Haiti is in an ideal position to facilitate 
the movement of cocaine and heroin from Colombia to the United 
States.
    DEA is represented on the island of Hispaniola by the Port-
au-Prince country office in Haiti and the Santo Domingo country 
office in the Dominican Republic.
    Drug trafficking through Haiti is aided by the country's 
long coastline, mountainous interior, numerous uncontrolled 
airstrips, its 193 mile border with the Dominican Republic, 
and, obviously, its location in the Caribbean.
    As is the case throughout much of the Caribbean, the 
primary method for smuggling cocaine into Haiti is via maritime 
ships. Traffickers also routinely transport cocaine from 
Colombia to Haiti by single or twin engine aircraft, the 
clandestine landing strips or air drop cocaine loads to waiting 
land vehicles or maritime vessels.
    Other common conveyances for smuggling cocaine into Haiti 
include cargo freighters, containerized cargo vessels, fishing 
vessels, and couriers on commercial aircraft.
    As cocaine enters Haiti, it is usually stored locally until 
it can be shipped to the United States or other international 
markets. Cocaine is often smuggled out of Haiti in 
containerized cargo or on bulk cargo freighters directly to 
Miami. The cocaine shipments aboard cargo freighters are 
occasionally off-loaded to smaller vessels prior to arrival in 
the continental United States.
    Cocaine is occasionally transferred over land from Haiti to 
the Dominican Republic for further transshipment to Puerto 
Rico, the continental United States, Europe, and Canada. As in 
most countries where the cocaine trade has evolved, the pull of 
drug trafficking has left its imprint on Haiti and its police.
    Since the inception of the Haitian National Police in 1996, 
limited progress has been made. As presently configured, the 
Haitian National Police lacks logistical support and training, 
a unified drug intelligence system, command and control 
capability, and adequate resources. Furthermore, several 
incidents have occurred which have further destabilized the 
leadership and effectiveness of the Haitian National Police.
    First, on October 7, 1999, the Haitian Secretary of State 
for public security, Robert Manuel, formally resigned and left 
Haiti with his family for Guatemala. Following this, on October 
8, 1999, an advisor to Haitian National Police Director Pierre 
Denize and confidante of President Preval and former President 
Aristide was assassinated. It was learned shortly after the 
assassination that the advisor, Jean Lamy, was the potential 
successor to Manuel.
    Finally, during the evening of October 14, 1999, an 
assassination attempt was made against Mario Andersol, head of 
the judicial police.
    In August 1998, in response to a directive from the 
Attorney General, DEA enhanced the Port-au-Prince country 
office by increasing manpower and immediately deploying six 
special agents. Presently, the office is staffed by one country 
attache, six special agents, and one administrative support 
specialist.
    In an attempt to further enhance and invigorate counterdrug 
activities in Haiti, the Port-au-Prince office has established 
an airport task force, a street enforcement interdiction task 
force, and a maritime interdiction force. Each of the 
respective task force groups has developed an area of expertise 
for both the DEA special agents and Haitian National Police 
officers, alike.
    Primarily, the long-term goal of each of these units is to 
target then immobilize major trafficking organizations through 
the arrest, prosecution, and conviction of its principal 
members. In addition, each group attempts to maintain and 
foster cooperative efforts with their Haitian National Police 
counterparts.
    What is most apparent in Haiti is the need for a 
counterdrug strategy that incorporates an interdiction 
component that is furnished critical, time-sensitive 
intelligence. The vastness of the Caribbean corridor, combined 
with traffickers' use of sophisticated compartments utilized in 
freighters and the sheer volume and variety of commercial cargo 
flowing through the Caribbean make it a meaningful interdiction 
program almost completely dependent on quality intelligence.
    As a result, the Caribbean field division, in an attempt to 
defuse this intelligence void, created the UNICORN system. We 
call it the unified Caribbean online regional network. With 
this system, participating Caribbean law enforcement agencies 
can share photographs, data, and information concerning various 
targets, locations, and groups involved in drug trafficking and 
money laundering.
    The Drug Enforcement Administration loans the equipment to 
participating agencies and provides training to host country 
counterparts, as well as installation and implementation of the 
system.
    The UNICORN system has already reaped tremendous benefits, 
as exhibited in the success of Operation Columbus, Genesis, 
and, most recently, Conquistador. The enforcement operations 
planned and coordinated by the Caribbean field division have 
severely disrupted drug trafficking organizations through the 
Caribbean region and have reaped tremendous benefits.
    For purposes of today's hearing, I would like to briefly 
discuss Operation Conquistador.
    In conjunction with the Bureau of Alcohol, Tobacco, and 
Firearms and the United States Coast Guard, Operation 
Conquistador was simultaneously launched on March 10, 2000, in 
Panama, Colombia, Venezuela, Bolivia, Ecuador, Suriname, 
Trinidad & Tobago, Montserrat, Dominica, St. Kitts, Nevis, 
Antigua, Anguila, St. Martin, British Virgin Islands, Barbuda, 
Grenada, Barbados, St. Vincent, St. Lucia, Aruba, Curacao, 
Jamaica, Haiti, Dominican Republic, and the Commonwealth of 
Puerto Rico.
    The primary objective of Operation Conquistador was to 
develop an effective regional strategy intended to disrupt drug 
trafficking activities and criminal organizations operating 
throughout the Caribbean.
    Command and control of the operation was executed from the 
DEA Caribbean field division in San Juan, Puerto Rico, with 
forward operating posts in Trinidad & Tobago and the Dominican 
Republic.
    The Coast Guard provided expanded presence of interdiction 
assets throughout the Caribbean and executed air and maritime 
command and control of sea and airborne drug interdiction 
assets from all countries.
    The Bureau of Alcohol, Tobacco, and Firearms conducted 
traces of all seized weapons.
    This operation concluded after 17 days on March 26, 2000. 
Although the arrests and seizures in Operation Conquistador 
were extremely impressive, they, however, were secondary to the 
cooperation and coordination among the 26 countries that 
participated in this endeavor.
    Despite limited resources and infrastructure in many of 
these countries, all responded with notable efforts and 
results. The sense of cooperation and the desire to attain a 
common goal among each country that participated should be the 
prelude to the evolution of an effective regional strategy.
    In conclusion, I would like to say that Haiti requires a 
great deal of progress before they are able to effectively 
impede and diminish drug trafficking. A working legislature is 
required to implement counterdrug legislation. Conspiracy and 
asset forfeiture laws especially deserve attention.
    The Haitian judicial system must be reformed and modernized 
to uphold the rule of law. Haitian law enforcement requires 
extensive training and resources. The Haitian Coast Guard 
requires more bases, especially on the southern coast. Also, 
airport and port security should be strengthened.
    Until such reform is undertaken, Haiti will continue to be 
used as a significant transshipment point for illegal drugs.
    Presently, the DEA has an effective working relationship 
with key officials in the Haitian National Police, judicial 
police, and other members in the Haitian Government.
    With this in mind, DEA will continue to aggressively 
address the trafficking threat in Haiti and improve the ability 
of DEA personnel assigned to the island to confront this 
threat. We will continue to plan United States law enforcement 
operations in conjunction with the Haitian National Police. 
These operations will include enhancing the capabilities of 
drug units, investigating money laundering operations, 
improving the Haitian National Police drug interdiction 
capacity, and providing the basic framework for a drug 
intelligence system.
    DEA will remain actively engaged with our Haitian 
counterparts to develop a respectable, dedicated, and corrupt-
free drug unit. Over time, drug trafficking organizations that 
rise to prominence in Haiti can be effectively dismantled, 
providing that the Haitian National Police continue to progress 
and enhance their law enforcement and judicial capabilities.
    Thank you for the opportunity to testify today, Mr. 
Chairman. I will be happy to respond to any questions you or 
the members of the subcommittee may have.
    Mr. Mica. Thank you.
    [The prepared statement of Mr. Vigil follows:]

    [GRAPHIC] [TIFF OMITTED] T0438.032
    
    [GRAPHIC] [TIFF OMITTED] T0438.033
    
    [GRAPHIC] [TIFF OMITTED] T0438.034
    
    [GRAPHIC] [TIFF OMITTED] T0438.035
    
    [GRAPHIC] [TIFF OMITTED] T0438.036
    
    [GRAPHIC] [TIFF OMITTED] T0438.037
    
    [GRAPHIC] [TIFF OMITTED] T0438.038
    
    [GRAPHIC] [TIFF OMITTED] T0438.039
    
    [GRAPHIC] [TIFF OMITTED] T0438.040
    
    Mr. Mica. We will withhold questions until we've heard from 
our final witness. That witness is Mr. John Varrone, and he is 
the Acting Deputy Assistant Commissioner, the Office of 
Investigations, U.S. Customs Service.
    You are recognized, sir. Welcome.
    Mr. Varrone. Good morning, Mr. Chairman. It is my pleasure 
to once again have the opportunity to appear before this 
committee to discuss the law enforcement activities of the U.S. 
Customs Service, and, in particular, law enforcement efforts 
directed against drug traffickers in Haiti.
    Mr. Chairman, with your permission, I'd like to submit a 
long statement for the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Varrone. Thank you, sir.
    I last testified before this committee in January, when 
field hearings were held in Miami regarding the role of Cuban 
drug smuggling. Today, I will describe in more detail the 
threat, our law enforcement activities, and Customs' 
international assistance to Haiti.
    I have brought along several exhibits today that I hope 
will help to illustrate some of the challenges we face in 
dealing with this threat.
    In our assessment, Haiti plays a significant role as a 
transshipment point for cocaine destined to the United States. 
This assessment is derived from both our role as one of the 
primary interdiction agencies responsible for detection and 
monitoring in the source and transit zones, as well as our 
successful experience in investigating Haitian smuggling 
organizations.
    As this committee is aware, many factors have converged in 
recent years to make Haiti the path of least resistance in the 
Caribbean for drug smugglers. Our intelligence indicates that 
cocaine is being smuggled to Haiti in both private aircraft and 
maritime vessels, including both commercial vessels and so-
called ``go-fast boats.''
    A very recent example of this smuggling activity occurred 
on March 1, 2000, when our interdiction assets in the region 
were able to document and record an ongoing suspected cocaine 
air drop in Haiti while in progress.
    Mr. Chairman, with your concurrence, I'd like to present 
this short video before the committee at the conclusion of my 
remarks.
    What I have described for you thus far has involved our 
operations and the threat and the source and transit zones. I 
will now describe our operations in the arrival zone.
    For the Customs Service, the Miami River presents one of 
our greatest threats from Haitian drug smuggling organizations. 
The reason for this is that the majority of the vessels, an 
average of 40 per month, that arrive in the United States from 
Haiti do so along the Miami River. These vessels present a 
threat that is truly unique when compared to other vessels who 
arrive from foreign ports.
    What distinguishes Haitian-origin vessels from other 
foreign vessel arrivals is that they virtually all arrive in 
the United States without freight.
    Another factor which distinguishes Haitian vessels from 
others is that they routinely spend weeks or more loading cargo 
prior to departing for return for Haiti. From a law enforcement 
perspective, the fact that Haitian vessels spend weeks sitting 
on the Miami River is a tremendous enforcement challenge, since 
it gives these criminal organizations an extremely long window 
of opportunity to remove their smuggled cocaine.
    Very often we develop confidential sources regarding 
Haitian vessels and crew engaged in smuggling cocaine. However, 
the Miami River environment makes surveillance extremely 
difficult, and smuggling organizations exploit this weakness. 
During certain periods, we have had drug smuggling intelligence 
information on virtually every freighter on the Miami River.
    Even with these law enforcement challenges, we have had 
some notable success in combating these drug smuggling 
organizations. Since the beginning of fiscal year 2000, the 
Customs Service has seized in excess of 5,600 pounds of cocaine 
that arrived directly from Haiti. Of this amount, more than 
5,000 pounds was seized from freighters arriving from Haiti on 
the Miami River. In one 2-week period in early February, we 
seized more than 3,400 pounds of cocaine from five vessels 
which had arrived from Haiti.
    We can attribute much of our success over the last several 
years to long-term, multi-agency operations that focus 
specifically on the Miami River and related criminal 
organizations. One such operation, termed ``River Sweep,'' is a 
cooperative effort involving Customs, the FBI, DEA, Coast 
Guard, and the local police departments.
    In closely reviewing and analyzing the results of our law 
enforcement operations, we have made several observations that 
we think are important. Consistent with most drug smuggling 
organizations, Haitian drug smugglers routinely analyze 
Customs' successes and routinely adapt their concealment 
techniques in an effort to minimize their risk and minimize 
drug interdiction.
    On the Miami River, this has meant that drugs historically 
concealed in rudimentary compartments in areas readily 
accessible by the crew have been moved deeper into the depths 
of the vessels. This move to deeper and harder concealment has 
made our discovery of drugs on freighters more time consuming, 
costly, and, most importantly, dangerous to our officers.
    In February of this year, when we seized more than 3,400 
pounds from the vessels, we learned that Haitian smugglers had 
again adapted to our success by developing new compartments to 
conceal their cocaine. The exhibits that I have brought with me 
today reflect these deeper concealment.
    In each of these seizures, the cocaine was concealed in a 
compartment that was built into the keel area of the vessel. We 
were only able to discover these compartments after an 
exhaustive search based upon specific intelligence derived from 
an ongoing investigation.
    During our search, we had to place four vessels into dry 
dock in order to cut open the compartments from the outside and 
remove the cocaine. It cost approximately $10,000 per vessel to 
place these vessels into dry dock and to perform the searches. 
This amount does not include the cost incurred to contract 
professional marine engineering experts to open the keels so 
that we could extract the cocaine.
    In addition to seizing a total of 5,000 pounds of cocaine 
on the Miami River, we have seized 11 coastal freighters that 
were used to conceal the drugs. The seizure of these vessels 
presents some unique challenges and issues to Customs. 
Identifying true ownership is very, very difficult for the 
Customs Service. These organizations routinely use beepers to 
conceal the true ownership.
    The expenses related to importing, smuggling cocaine, is 
such that the violators are able to disguise that from Customs 
and we're unable to identify them.
    We have found that shipping company representatives often 
really do not know who the true owners are. We had two cases 
where the vessel had been auctioned and 2 years later the same 
vessel with a different name attempted to smuggle contraband 
into the country and we re-seized the same vessel.
    Turning to money laundering, our response to dealing with 
the threat presented from Haiti is not limited to searching for 
cocaine. Thus far, in fiscal year 2000 we have seized more than 
$1.2 million in United States currency that was destined for 
Haiti. These seizures have occurred as a result of our outbound 
inspection programs at both Miami and JFK International 
Airports. In addition, several of the largest currency seizures 
have come as a result of proactive investigations which focused 
on Haitian drug money laundering organizations operating in the 
Miami area.
    In 1999, our largest outbound seizure destined to Haiti 
occurred on the Miami River, when our agents developed 
information which led inspectors to seize more than $1.3 
million in a single incident. In this case, we discovered the 
currency in tool boxes on a freighter departing for Haiti.
    Our outbound inspection programs have also identified a 
significant threat for both weapons and stolen vehicles that 
are being smuggled to Haiti.
    Simultaneous to our enforcement efforts, we continue to 
support institution building in Haiti. While the Customs 
Service doesn't have any personnel assigned to Haiti as part of 
the United States country team, we have been very active over 
the past several years in providing law enforcement support to 
our counterparts. Through the State Department's Bureau of 
International Narcotics Law Enforcement, the Customs Service 
has provided several training courses to Haitian officers in 
both the areas of contraband detection and, more recently, 
integrity training. We are currently scheduled to conduct 
another such contraband detection training seminar in May.
    In addition, in March we sent several inspectors and agents 
to work side by side with Haitian Customs and Haitian National 
Police during Operation Conquistador, a regional interdiction 
operation that focused on the movement of drugs through the 
source and transit zones.
    We have also been participating with other Federal agencies 
in an effort to work cooperatively with both Haitian and 
Dominican agencies to strengthen the border between those two 
countries and slow the movement of cocaine from Haiti to the 
Dominican Republic.
    While the Customs Service has many notable successes in 
dealing with the threat from Haiti, we believe that reducing 
the threat will involve a long-term, comprehensive effort to 
reduce Haiti's attractiveness to drug smugglers who use it as a 
path of least resistance.
    As our air/marine interdiction video demonstrates, the 
first and most critical step in this process has to be to 
develop a credible and sustainable capability to conduct 
endgame operations in and around Haiti.
    It is clear that the success rate for importations of 
cocaine from Colombia to Haiti is very high. Drug deliveries 
that are not successful are due almost exclusively to 
mechanical failures of aircraft or vessels and not Haitian law 
enforcement activities.
    In addition, our operational experience in Haiti has shown 
us that we need to continually work closely to help Haiti 
improve their capabilities.
    This concludes my remarks. I'd like to thank the committee 
for this opportunity to testify today and would be glad to 
answer any questions you may have after the presentation of the 
video.
    Thank you, sir.
    Mr. Mica. Let's go ahead and show the video, without 
objection.
    [Video presentation.]
    Mr. Varrone. Sir, I probably should have given you the 
backdrop before we went into it. I apologize. But this event 
occurred on March 1, 2000. Our P-3 picked up that suspect 
aircraft about 33 miles north of Maracaibo, Venezuela. We 
tracked it in. As you can see, there was an air drop.
    We were able to obtain the tail number of that aircraft, 
and our information is that we have tracked that aircraft on 
several other occasions.
    After his air drop, he returned to Venezuela, where we, 
through ground forces, alerted everyone. We were denied air 
entry into Venezuelan airspace. They did launch on it, but 
there was no endgame. There was no successful endgame, as there 
was no successful endgame in Haiti.
    Thank you, sir. That's all I have.
    [The prepared statement of Mr. Varrone follows:]

    [GRAPHIC] [TIFF OMITTED] T0438.041
    
    [GRAPHIC] [TIFF OMITTED] T0438.042
    
    [GRAPHIC] [TIFF OMITTED] T0438.043
    
    [GRAPHIC] [TIFF OMITTED] T0438.044
    
    [GRAPHIC] [TIFF OMITTED] T0438.045
    
    [GRAPHIC] [TIFF OMITTED] T0438.046
    
    [GRAPHIC] [TIFF OMITTED] T0438.047
    
    [GRAPHIC] [TIFF OMITTED] T0438.048
    
    [GRAPHIC] [TIFF OMITTED] T0438.049
    
    Mr. Mica. I have a number of questions, but we have been 
joined by a member of our panel and also the chairman of the 
International Affairs Committee, the gentleman from New York, 
Mr. Gilman, and I'd like to recognize him at this time for a 
statement.
    Mr. Gilman. Thank you, Mr. Chairman, Chairman Mica, for 
holding this important and very timely hearing on our 
hemisphere and Haiti, our neighbors now descending into the 
frightening depths of drug corruption and violence. In fact, 
Haiti is becoming the narcostate, and OAS is considering 
declaring them a non-democratic nation because of the problems 
that exist in Haiti today.
    Colombian drug traffickers have established, I think, a 
firm beachhead in Haiti. It is estimated that 14 percent of the 
South American cocaine headed for our Nation is now passing 
through Haiti.
    The Los Angeles Times reports that the Haitians have become 
an organized smuggling force in their own right. This same news 
account sadly comments that, ``so ingrained has the trade 
become in Haitian society that entire villages have come to 
subsist on what they can siphon off from it. Narcotics 
traffickers are routinely released from prison by corrupt 
Haitian judges, while opponents of the Lavalas regime languish 
in jail for crimes of plotting against the state.''
    Drug-related corruption has become widespread in the 
Haitian National Police. This may account for why the Haitians 
have seized less than a third of the amount of cocaine that 
they did in 1998.
    The Government of Haiti's singular lack of cooperation has 
led the administration to decertify Haiti for a second year in 
a row, and the Haitian National Police, created with massive 
United States assistance, is profoundly politicized. Nearly all 
of the members of the HNP's middle-level officer corps were 
selected based on their loyalty to former President John 
Bertranas Sneed's Lavalas party. Police Chief Pierre Deneze is 
a little more than a figurehead.
    We face a grim future in our relationship with Haiti. 
Without some dramatic changes, Haiti will become a criminal 
organization shielded by the privileges of sovereignty. We must 
acknowledge what is happening in Haiti. We cannot protect our 
national interest, nor can we help alleviate the suffering of 
the much-abused people of that island nation until we come to 
grips with what the situation actually is.
    So I am urging the administration to formulate a new policy 
directive for our Government to contain and to work to 
eliminate this drug cancer that now threatens to consume Haiti.
    I thank you, Mr. Chairman, for this very timely hearing.
    Mr. Mica. I thank the gentleman, and also for his hard work 
on the subcommittee and chairman of the important International 
Relations Committee in trying to bring some sense and order to 
both our policy and also the situation relating to illegal 
narcotics trafficking in the poorest of our hemispheric 
nations.
    I have a few questions I'd like to start out with for the 
Department of State.
    Maybe, Ambassador, you could give me some estimate as to 
how much money we have spent in building both the law 
enforcement and judicial structure in Haiti to date.
    Ambassador Steinberg. Thank you, Mr. Chairman.
    Our assistance to both of the sectors has been in the 
neighborhood of $200 million, if you combine them. I will give 
you a complete listing of the exact programs. OPDAT and ICITAP 
have been the principal agents through which those programs 
have been carried out, and they may be able to address those 
questions more directly.
    In the case of----
    Mr. Mica. An estimate, then, of $200 million on both the 
police and judicial, the whole spectrum of rule of law 
initiatives?
    Ambassador Steinberg. That would be an overall estimate. I 
will, indeed, provide you with direct numbers.
    Mr. Mica. By most accounts in some of the testimony here 
today, that program has not been very successful, and now, if 
there is any success, it is threatened with the corruption, 
assassinations, intimidation, drug trafficking, etc.
    One of the concerns that we have as a subcommittee, 
oversight subcommittee, is we understand, from a report in 
November, that USAID--Agency for International Development 
under the Department of State--awarded the Haitian justice 
reform program to a Washington-based consulting firm--Chechi 
and Co.--and the individual chosen to run the program held a 
degree in international agriculture. Is that correct? And is it 
appropriate to award a contract of this importance and 
significance to someone who holds an agricultural degree?
    Ambassador Steinberg. The individual involved was an expert 
in management, an expert in development. Chechi Associates has 
a wide range of activities that they have been involved in 
around the world, and his effort was to manage the program, 
which involved a number of experts throughout the area.
    That program----
    Mr. Mica. The individual in charge of the program held an 
agriculture degree; is that correct?
    Ambassador Steinberg. That is true, sir. He was also an 
expert in management issues.
    Mr. Mica. Well, the reports that we had also indicated the 
person selected to set up the Haitian court system was a 
disbarred California lawyer with several felony convictions, 
including defrauding the U.S. Government. I'm trying to figure 
out--maybe Mr. Gilman and I both would like to know--how we 
could have somebody selected to set up the Haitian court system 
who is a disbarred California attorney and also had been 
charged with defrauding the U.S. Government.
    Ambassador Steinberg. Mr. Chairman, the contractor that you 
are describing here was assigned to provide legal assistance to 
prison detainees. He was not in charge of the whole program, as 
you've described.
    Second, he was not a direct hire of the U.S. Government. He 
was an employee of a contractor. He served for less than a 
year. There is not a regular procedure in place to go into the 
employment background applications of all AID contractors. Once 
this was discovered, there was a series of investigations which 
led to his immediate resignation.
    Mr. Mica. Well, we're also concerned about the upcoming 
elections, which have been postponed. You're correct in that 
they are, I guess, scheduled for May 21st of this year in that 
timeframe just recently announced within the last number of 
hours. We're very concerned about the safety of voters. The 
suspicious recent murder of Haitian radio journalist of Jean 
Larapode Dominic who criticized the government is one example 
of this situation spiraling out of control and now emboldened 
murders taking place even for those who may be champions of 
free and fair elections. What are we doing in that regard to 
ensure this process moves forward?
    Ambassador Steinberg. Mr. Chairman, I share those concerns. 
I have traveled to Haiti now three times over the last few 
weeks in order to try to push this process ahead. We are deeply 
concerned over the continuing delays in the holding of 
legislative and local elections.
    You may be aware that some 3 to 4 million Haitians have 
actually registered to vote for those elections. This is 
unprecedented in Haitian history. In addition, there are some 
29,000 candidates who are competing for those positions. Again, 
there is election fever in Haiti.
    We have encouraged President Preval, who is responsible for 
publishing a date, which would be proposed to him by the 
Provisional Electoral Council, to move rapidly to hold these 
elections in advance of the seating of parliament, which is 
constitutionally mandated for the date of June 12th.
    As you said, over the last few days we have intensified 
contacts with officials in Haiti, and we were pleased that a 
date seems to be emerging for May 21st for the holding of the 
first round of those elections.
    At the same time, we are equally disturbed over the 
violence that you have described. This is a very negative 
trend. We were extremely disturbed over the weekend at the fact 
that one of the headquarters of an opposition party was burned 
to the ground. We have condemned that, and we have called on 
the government of Haiti, as well as the police officials of 
Haiti, to identify those people responsible for that action and 
bring them to justice immediately.
    We have also called on the Haitian authorities to 
reinstitute security. We are deeply disturbed that there was no 
intervention in that individual case, although subsequently the 
Haitian National Police did act to forestall other actions on 
the ground.
    Even as we are speaking, there is a meeting of the 
Organization of American States where this issue is being 
discussed, and we are working to ensure that the entire 
international community is on board with pressure to hold these 
elections.
    Again, Mr. Chairman, these elections are not just going to 
be held in isolation. They are a key to restoring responsible 
government. They are a key to passing some of the very laws 
that we have been talking about here today that relate to drug 
trafficking, which is one of our highest priorities. They are a 
key to restoring the faith of the Haitian people in their 
democratic institutions, and we will continue to support those 
elections. We have already provided substantial financial 
support. They are a key to the fact that we are about 75 
percent there in terms of getting to these elections, and we 
will continue that effort.
    Mr. Mica. Well, we heard you describe the amount of money 
that was spent on training police and building the judicial 
system, and also refer to working with the police. I guess part 
of your program you would train, probably, the chief law 
enforcement officer, which would probably be--the largest 
agency would be Port-au-Prince, the police chief. Is that 
correct?
    Ambassador Steinberg. I'd really rather have my colleague 
from Justice Department, who is in charge of this----
    Mr. Mica. Well, that would have been one of your trainees 
at some point, I would imagine. Otherwise, I don't know how you 
could conduct a program to train police without working with 
the head of the Port-au-Prince police. Would that be correct?
    Mr. Alexandre. I don't know whether it is a requirement 
that members of the police agency graduate from the school, 
and----
    Mr. Mica. But you wouldn't have directed any of your 
program or the $200 million toward Port-au-Prince police 
activities?
    Mr. Alexandre. No. The focus of the assistance has been on 
providing training and technical assistance.
    Mr. Mica. Well, I'm concerned that Port-au-Prince's former 
police chief, Lieutenant Colonel Michael Joseph Francois, was 
indicted in the United States in 1997 for narcotics 
transportation and distribution. He has fled to Honduras. Can 
you tell me if we have gone after that individual? Are we 
pursuing that individual?
    Ambassador Steinberg. Mr. Chairman, the individual that you 
are describing was, indeed, part of the regime from 1991, that 
organized the coup that overthrew the democratically elected 
government at the time. Indeed, he was one of the individuals 
whom we focused on in terms of having him leave the country to 
allow democracy to reemerge.
    Mr. Mica. Well, he has been indicted by the United States. 
Is there a request for extradition? What's the process? It is 
nice to spend the money on building a judicial system. I don't 
know if he was involved in that. We don't have an answer on 
that. But he obviously was involved in drug trafficking and 
transportation distribution, fled to another country, which is, 
my most recent information, is an ally of the United States. 
And is he still at large? Are we going after that individual 
and making an example of him, or is he just on the lam?
    Ambassador Steinberg. Mr. Chairman, I obviously wasn't 
clear in my previous comment. This is an individual who was 
part of the military regime----
    Mr. Mica. Right.
    Ambassador Steinberg [continuing]. In a previous era. We 
provided no assistance to that individual during that period. 
Indeed, we had sanctions against that government, very strong 
sanctions.
    Mr. Mica. Well, he was there in 1997, and fled to Honduras. 
Are we making an example or going after that individual?
    Ambassador Steinberg. I would have to take that question in 
turn to----
    Mr. Mica. Could you just give the subcommittee, for the 
record, some information relating to what is taking place with 
pursuing that individual?
    Ambassador Steinberg. We will do so. Thank you, Mr. 
Chairman.
    Mr. Mica. It is my understanding there has only been one 
successful prosecution for drug trafficking in recent years, 
and that was the 1998 trial of the five Colombians, who I think 
testimony indicated, would be released after maybe a year. What 
kind of example does this set for drug traffickers to have one 
prosecution and then 1 year of penalty?
    Ambassador Steinberg. Mr. Chairman, can I just elaborate on 
the previous comment?
    When the military regime left the country, he fled to 
Dominican Republic, and only in 1997 did he then move to 
Honduras.
    Thank you.
    Mr. Mica. I'm not interested in tracing his movements, 
necessarily. I'm interested in whether we're pursuing it.
    He was indicted by the United States for trafficking and 
distribution of narcotics, and, I mean, to set an example you 
go after these folks.
    We've had one successful prosecution of five Colombians who 
are going to be released in 1 year, and the place is running 
rampant with drug dealers and others. Nobody respects the law 
if there is no enforcement, prosecution, or penalty.
    This is my point. What is happening now with these 
individuals is this--our record of success after spending $200 
million in police enforcement training and judicial--and rule 
of law building, this is what we have to show for it.
    Mr. Alexandre. Mr. Chairman, we are not satisfied that the 
sentence meted out during the course of this program case is 
adequate. As I pointed out during the course of my testimony, 
the legislative framework for combating narcotrafficking in 
Haiti, the legal framework for asset forfeiture and money 
laundering, they are very weak.
    In order to remedy the situation, legislation is needed. 
And, because there has not been an effective, functioning 
legislature, there has not been progress in that area.
    It is our hope that, once this election is held and there 
is a sitting legislature, that legislation will be promptly 
submitted to the legislature for action. In fact----
    Mr. Mica. Well, we don't have a legislature in place. We 
don't have elections. We don't have meeting of the legislature 
to approve a maritime agreement. So we have a maritime 
agreement but we don't have approval.
    We spent money on training of judges and police to the tune 
of $200 million. I would imagine it is even more than that. And 
you talked about maybe a more sophisticated level of pursuit of 
some of these individuals who maybe have been charged or 
involved in money laundering or more complex part of the 
judicial system, and we have reports that there are packed 
Haitian jails with people who have never been to trial. I mean, 
these are some basic things.
    For $200 million, it doesn't seem like a very good return, 
and even the basic liberties or access to justice doesn't 
appear to be in place at any level, high or low.
    Do either one of you want to respond?
    Mr. Alexandre. Let me just make a remark about that. That 
has been one of our frustrations with respect to the level of 
pretrial detainees.
    As I pointed out earlier in my testimony, the Haitian legal 
penal framework is very antiquated and does not provide for 
bail in many circumstances, so, as a result, the number of pre-
trial people who are in jail are not released on bail.
    Second, the number of investigating judges available to 
handle some of these cases is also inadequate. There is only 30 
investigating judges for a country with a population of 8 
million people. That explains, in part, the number of people 
who have been sitting in jail in pre-trial detention.
    But on the other narcotics issues, I'd defer to my 
colleagues from the DEA.
    Mr. Vigil. If I can make a comment, the Haitian Government 
fully recognizes the fact that they have very little adequate 
legislation that would impact on prosecutions, on other issues 
such as money laundering. However, we do have a program in 
place where we are exchanging information, and one of the 
things that we're trying to do within the Drug Enforcement 
Administration is to develop investigations in the United 
States against a lot of these targets and then prosecute them 
here in the United States.
    As a result of the operations that I mentioned--Operation 
Genesis, Columbus, and Conquistador--we have developed a very 
good rapport with the Haitian National Police. Genesis was a 
binational operation between Haiti and drug Dominican Republic.
    As all of you are aware, you know, we have had constant 
strife between both countries that exceed over a century, and 
as a result of that operation, in the aftermath we had the 
Haitian Government that arrested the wife, son, and brother-in-
law of Edeberto Conao, who is a major drug trafficker out of 
Colombia who was recently arrested in that country. They didn't 
have charges on these individuals, so what they did is they 
turned them over to the Dominicans, who did, in fact, have 
jurisdictional venue over these individuals.
    Later, the Dominicans also responded by arresting a serial 
killer that was getting ready to board an American Airlines 
flight to New York, and they didn't have charges so they took 
him over to the border and turned him over to the Haitian 
authorities in Melpas.
    Now, as far as money laundering legislation, obviously, 
they don't have adequate laws, but what they did was they hired 
three legal scholars to review their laws, which parallel, you 
know, French law, and, much to their credit, they have 
undertaken steps to start seizing properties and money.
    For example, during the past year they've seized in excess 
of $4 million at the Port-au-Prince Airport that was destined 
for Panama. And what they've done is they have looked at their 
laws and they have structured these seizures in a way that, if 
the individual from whom the money or the assets were seized 
cannot prove legitimate ownership or revenues that would allow 
them to purchase million-dollar residences, those assets are, 
in fact, seized by the Haitian Government. Some of those assets 
go to the police department, and other assets do go to 
restructuring of their judicial system.
    Mr. Mica. I have additional questions, but I'd like to 
yield now to the gentleman from New York, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Mica.
    I'll ask any of the panelists who can answer this, how many 
unvetted former Haitian Army officers have been inserted into 
the HNP? Is anyone able to tell us that?
    Mr. Alexandre. I don't know, but I could try to find out.
    Mr. Gilman. Could you, and provide us with that 
information?
    Do you have any reporting on who is putting these former 
Army members into the HNP? And, if you could, provide us with 
that information.
    And what is Danny Toussaint's relationship to the HNP? Can 
anyone explain that for us?
    Mr. Vigil. Whose relationship, sir?
    Mr. Gilman. Danny Toussaint. He's a security officer for 
the administration for the Lavalas.
    Ambassador Steinberg. Mr. Chairman, thank you. We can 
address that question in another setting in greater detail.
    Mr. Gilman. All right.
    Ambassador Steinberg. But I will say that he has no formal, 
at this point, relationship. We, indeed, have indicated that a 
number of individuals who were suspected of illicit activities 
are not to have a formal role if the United States is going to 
continue to be able to support those activities. But I would 
rather, in a closed setting, address that question in greater 
detail.
    Mr. Gilman. We're going to ask our staff to arrange that 
session with you.
    Ambassador Steinberg. I will be there, but also our 
intelligence community would have the better information.
    Mr. Gilman. All right. Do we have any reports regarding 
involvement of Haitian Governmental officials in narcotics 
trafficking? I'd ask our narcotics expert.
    Ambassador Steinberg. Well, I'm not our narcotics expert, 
Mr. Chairman, and, I would say that our international narcotics 
bureau at the State Department is better placed to address that 
question specifically.
    But let me say we do have some reports of involvement by 
some officials of the government--the judiciary and political 
parties--in those activities that you have described. We can, 
again, provide additional information in another setting.
    The reports that we have received at this point are 
uncorroborated, and it would be inappropriate to address them 
in this setting.
    Mr. Gilman. Mr. Vigil.
    Mr. Vigil. What we have in terms of allegations are 
unsubstantiated rumors. You know, we in the Drug Enforcement 
Administration, you know, always look at compiling evidence 
that would substantiate, you know, those type of allegations.
    I worked over 14 years in the foreign arena, and it is 
somewhat unfortunate, but a lot of times we have individuals 
that take over police agencies and what have you, and within 48 
hours you immediately have informants tying them in to every 
major drug trafficking component that exists in those 
particular countries.
    So, again, nothing in there that one would be able to sink 
their teeth into--rumors at this point in time.
    Mr. Gilman. Do we have any agents in Haiti now, any 
narcotics agents?
    Mr. Vigil. As far as DEA goes, yes, we have six special 
agents, one country attache in Haiti at this point in time.
    Mr. Gilman. Are you restricted in your activities in any 
manner?
    Mr. Vigil. Not at all. As a matter of fact, we've 
developed, you know, a lot of components there--a maritime task 
force, airport task force. We're in the process of negotiating 
with the Haitian Government in the establishment of a multi-
agency mobile task force to include not only the Haitian 
National Police but the Coast Guard and Customs, Immigration, 
and what have you, that would be highly mobile and be able to 
address a lot of problematic areas throughout that country.
    Mr. Gilman. And, Mr. Vigil, is it true that most of the 
drugs transiting through Haiti coming to the United States 
originate in northern Colombia?
    Mr. Vigil. Well, I would say that in Colombia most of the 
drugs are manufactured in the southern regions of Colombia. The 
northern area of Colombia obviously has always been a primary 
staging area. But yes, the cocaine that comes into Haiti is by 
way of Colombia.
    Mr. Gilman. And is it coming from out of northern Colombia?
    Mr. Vigil. Yes, sir. And some of that also through 
Venezuela. Obviously, Venezuela is also a transshipment point.
    Mr. Gilman. If we are having limited success in Haiti in 
stopping those drugs, why don't we move the point of resistance 
back some, especially to northern Colombia, where we have good 
Colombian police who may be willing to work in fighting the 
drugs?
    Mr. Vigil. Well, the thing is that we do have a lot of 
resources. There are significant measures being undertaken in 
Colombia. Obviously, it is very difficult to stop the entire 
flow of drugs coming from there.
    But I think one of the things that we're trying to work on 
is to develop a response capability. Obviously, in the 
Caribbean we do have a lot of detection and monitoring assets, 
but, at the same time, we don't have an endgame situation for 
Haiti, and one of the things that we've discussed with the 
chairman, Mr. Mica, is the need for helicopters to address the 
flow of drugs into Haiti. Otherwise, what we have is basically 
a fancy escort service in terms of those assets.
    Mr. Gilman. Well, has the DEA made a request for such 
equipment?
    Mr. Vigil. I have been making that request since I arrived 
in the Caribbean for over a year and a half, sir.
    Mr. Gilman. Has that research been forwarded on to the 
Congress?
    Mr. Vigil. It has been forwarded on to everybody.
    Mr. Gilman. How many choppers were you asking for?
    Mr. Vigil. Well, anywhere from three to five.
    Mr. Gilman. What kind of choppers?
    Mr. Vigil. Preferably Blackhawk, UH-60's.
    Mr. Gilman. Our committee staff were in northern Colombia 
over a year ago and learned the Colombian Navy lacked gas, in 
many cases, to pursue the fast boats carrying drugs to Haiti. 
Are you familiar with that problem?
    Mr. Vigil. If you would repeat that, sir?
    Mr. Gilman. Our committee staff were in northern Colombia 
over a year ago, learned that the Colombian Navy lacked 
sufficient gas to pursue the many fast boats carrying drugs to 
Haiti.
    Mr. Vigil. Well, I was assigned to Colombia many years ago. 
I don't know if that situation presently exists, but the fact 
of the matter is that, you know, it depends on the type of 
ship. I don't think that the Colombians right now have adequate 
resources to address the go-fast boats in terms of the velocity 
of this craft.
    Mr. Gilman. Can the Coast Guard respond to that?
    Admiral Barrett. Sir, I am in the Coast Guard, but right 
now I am working for DOD, but I can tell you that there was a 
request from both the Colombian Navy and the Colombian Air 
Force for additional fuel funds, and that has been provided by 
INL during, I believe, this fiscal year. I think that became 
available in October.
    Mr. Gilman. Has it been delivered now?
    Admiral Barrett. I think the--I cannot tell you that for 
sure. I can check and get back to you.
    Mr. Gilman. Could you check that----
    Admiral Barrett. Yes, sir.
    Mr. Gilman [continuing]. And let us know what the status 
is?
    Admiral Barrett. There was--yes, sir. There was a question 
as to how we could legally provide that in the distribution, 
and I'm not sure of that, but I know the funding for it was 
made available this fiscal year, and that fuel should be 
available, but let me get back to you on that.
    Mr. Gilman. Does Haiti have any fast boats that are--have 
the capability of pursuing the boats that leave Colombia and 
head for Haiti?
    Admiral Barrett. No, sir. Not that I'm aware of. I know the 
new Haitian Coast Guard that our Coast Guard is helping has 
been provided renovated Monarch-type boats, but they are really 
multi-purpose for search and rescue. They are not pursuit boats 
at all, sir.
    Mr. Gilman. Mr. Vigil, has anyone made a request of that 
nature?
    Mr. Vigil. I believe that request has been made. What they 
do have are, like, a couple of Boston Whalers. They do have a 
few other ships, but nothing that would provide interception, 
and I think that request has also come forward.
    Mr. Gilman. Have you made a request of----
    Mr. Vigil. I personally have not made that request. No, 
sir.
    Mr. Gilman. Has anyone in DEA made that request?
    Mr. Vigil. I don't know if DEA has made the request, but I 
think that that request was made by--and I'll defer this to 
Admiral Barrett--through the U.S. Coast Guard.
    Mr. Gilman. What about Customs? Is Customs here? Has 
Customs made any request of that nature?
    Mr. Varrone. The request that Customs has made, sir, is for 
arrival zone assets.
    Mr. Gilman. For what?
    Mr. Varrone. Arrival zone, the arrival zone, not 
specifically for Haiti.
    Mr. Gilman. What do you mean arrival? Spell that out for 
us.
    Mr. Varrone. The arrival zone--the Miami River, the 
surrounding area, the 24-miles----
    Mr. Gilman. No. I'm asking about coming out of Colombia 
now. Has any request been made for fast boats to help the 
Colombian Navy or the Colombian Customs, or whoever it is, 
pursue the boats coming out of Colombia that are heading for 
Haiti?
    Mr. Varrone. No, sir. Not to my knowledge.
    Mr. Gilman. Can someone examine that need and make an 
appropriate request? Mr. Steinberg.
    Ambassador Steinberg. Mr. Chairman, one of the problems 
that we have vis-a-vis go-fast capacity in Haiti is the absence 
of port facilities that can handle it on the----
    Mr. Gilman. No. I'm talking about northern Colombia now, 
the product coming out of Colombia. They're going on fast 
boats. If we have no way of pursuing them, we're tying our 
hands.
    Ambassador Steinberg. I'm sorry, Mr. Chairman. What I was 
referring to is once those fast boats are on their way, 
presumably to Haiti, as we saw earlier, it is important to have 
bases, Naval bases on the southern part of the island that can 
address that responsibility.
    We are now negotiating with the Haitian Government for the 
construction of those sites. Indeed, there are two fast boat 
capable interceptors, one might say, in Port-au-Prince that 
need to be for that purpose.
    Mr. Gilman. So now you're talking about the point of entry.
    Ambassador Steinberg. Entry into Haiti.
    Mr. Gilman. But I'm talking about a point of embarkation 
out of Colombia.
    Ambassador Steinberg. OK.
    Mr. Gilman. We're talking about trying to move the thrust 
to where the product is coming from.
    Ambassador Steinberg. OK.
    Mr. Gilman. Mr. Vigil.
    Mr. Vigil. The problem is a little bit more complicated 
than just strictly go-fast boats. A lot of the drugs that flow 
out of Colombia are taken out by freighters, fishing vessels, 
and then they rendezvous in international waters with go-fast 
boats, so it is not an issue of just go-fast boats, you know, 
embarking from the Colombian north coast.
    Mr. Gilman. What percentage is going out by fast boat?
    Ambassador Steinberg. To give you an answer on that, we'd 
have to have a perfect intelligence apparatus. We don't have 
it.
    Mr. Gilman. No one knows how it is going out? Admiral.
    Admiral Barrett. The maritime threat in the Caribbean 
accounts for about 85 percent, sir. The prime mover in the 
maritime threat are go-fast.
    As Mr. Vigil says, though, go-fast doesn't carry near as 
much. A lot of times the go-fast will take the drugs offshore 
and load a freighter that comes through the canal and is headed 
toward Europe, headed toward southeast United States, so a lot 
of times it is a combination, sir. But go-fasts are our primary 
threat. There's no question about that.
    I also would like to add, sir, I did not understand----
    Mr. Gilman. Admiral, let me interrupt a moment. I 
appreciate the information.
    Admiral Barrett. Yes, sir.
    Mr. Gilman. If go-fast is a primary threat, what are we 
doing about stopping the go-fast boats out of Colombia?
    Admiral Barrett. I didn't understand your question earlier, 
sir. Colombia used go-fasts that they have seized. The 
Colombian Coast Guard and the Colombian Navy used go-fasts that 
they have seized down there that they have put back in service. 
They also use helicopters off of their vessels, and they have 
the authority for firing warning shots from their helicopters, 
and they have been effective against go-fasts.
    Mr. Gilman. How many go-fast boats does Colombia have that 
they've reconstructed?
    Admiral Barrett. I don't have the specifics. I remember 
seeing them when I was in Cartagena, sir, but I don't----
    Mr. Gilman. Could the panel provide this committee with 
information about the need for go-fast boats, how many are 
needed, and what we can do about trying to provide that?
    Admiral Barrett. Yes, sir.
    Mr. Gilman. We're talking about helicopters. Provide us 
with specific information?
    Admiral Barrett. Yes, sir.
    Mr. Gilman. Why do you need Hueys for intercepting Naval 
operations?
    Mr. Vigil. Well, not Hueys. You know, what I have referred 
to as Blackhawk helicopters are UH-60's. The Hueys, you know, 
we had those in Mexico, and, as far as I am concerned, by are 
very limited in terms of lift, distance, and speed capability.
    I think what we need are Blackhawk helicopters.
    Again, if we are going to have detection and monitoring 
assets in the Caribbean, I think that we have to have an 
endgame, and the helicopters can pursue and vector in, you 
know, other, you know, Coast Guard cutters, what have you.
    Most often than not, when these helicopters appear, either 
these individuals will at least toss the cargo overboard or 
beach the ship on shore where it can be seized.
    Mr. Gilman. All right. So if you could provide us with the 
kind of equipment that is needed be ever more efficient 
operation in Colombia with regard to shipments to Haiti, we'd 
welcome it.
    We saw the video. They had dropped--how come you weren't 
able to intercept the drops?
    Mr. Vigil. The problem is that, you know, in Haiti you have 
a very limited communications infrastructure within the Haitian 
National Police. A lot of the roads there are unpaved, you 
know. It looks like the Ho Chi Minh Trail after the B-52s 
bombed it, you know, just full of holes, very difficult to get 
into these remote areas.
    Again, here is where the helicopters would have played a 
very significant role.
    Mr. Gilman. Do we have any information that the police on 
occasion provide protection for the traffickers?
    Mr. Vigil. The thing is that there have been Haitian 
National Police officers arrested as a result of collusion with 
criminal organizations. Some of them have actually stolen drugs 
and they have been arrested by the Haitian Government. Yes.
    Mr. Gilman. Do you have any information of police 
involvement with any drug trafficker?
    Mr. Vigil. The thing is there is an endemic problem with 
corruption in Haiti. Yes, we have information on that. We have 
passed information. We have worked with the Haitian National 
Police, and they have attempted to arrest these individuals if 
they have information. And, like I said, they have arrested 
numerous individuals for corruption.
    Mr. Gilman. Has any of your information you passed on to 
Haitian officials been compromised?
    Mr. Vigil. Not to my knowledge. And one of the things that 
I would mention in that regard is that we've done multi-
national operations with Haiti, and we have discovered 
absolutely no compromise in these operations.
    As a matter of fact, on Conquistador they had three 
successes. On Operation Columbus they seized 275 kilograms, 
seized a $2 million residence, seized several vehicles, luxury 
vehicles, as well as United States currency.
    Mr. Gilman. This is my last question, Mr. Chairman. Is 
there much of a population that is involved in drug abuse in 
Haiti at the present time? How extensive is it?
    Mr. Vigil. We have not seen a tremendous amount of drug 
abuse; however, you know, one of the things that we've learned 
through history is that a lot of these countries that are 
producer countries, that are transshipment countries, 
eventually develop that type of problem.
    I think one of the factors in influencing that right now is 
the fact that, you know, these people barely have enough money 
to eat, much less pay for those type of expensive drugs.
    Mr. Gilman. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Gilman.
    A couple of things that have been brought to our attention 
here today. Even if they go after these drug traffickers, we 
spend $200 million in Haiti to build a police force which can't 
even pursue them, and then, if they are pursued and arrested, 
you have an ineffective judiciary, almost nonexistent, to go 
after them. We've had one conviction and sentencing, and it was 
for a minimal amount of time. It appears that even the judicial 
system that is in place is not effective, which is a 
frustration.
    The other point that was brought out--and I'm not sure if 
you've heard it, Mr. Gilman--is particularly disturbing. The 
Customs video that we saw and the comments from the Customs 
representative, Mr. Varrone, indicated that Venezuela is not 
cooperating.
    Mr. Varrone, could you tell us again what the situation is 
with Venezuela now? We've heard mixed reports of cooperation 
and non-cooperation.
    Mr. Varrone. It is my understanding in the video that we 
showed you that, in a case of hot pursuit, where we are 
following and targeting, we pass the target to them. They don't 
allow us to follow it all the way in, and, therefore, an 
endgame--in-country endgame is difficult for us to monitor 
success.
    Mr. Mica. The endgame is to go after the drug trafficker, 
right?
    Mr. Varrone. Yes, sir.
    Mr. Mica. And what happened with Venezuela?
    Mr. Varrone. We don't know in that case what the end user--
--
    Mr. Mica. You don't know if they went after them?
    Mr. Varrone. They launched the F-14s, and we were 
subsequently told that they were unsuccessful.
    Mr. Mica. How would you describe the cooperation with 
Venezuela now, at least from your perspective? We can go to the 
admiral in just a second.
    Mr. Varrone. We believe that more and more air traffic is 
shifting there, based upon the fact that we----
    Mr. Mica. That's the pattern that we saw presented by 
Admiral Barrett, that more are coming.
    Mr. Varrone. Yes, sir, because we have greater cooperation 
with Colombia than we do with Venezuela in regards to 
overflight right now.
    Mr. Mica. Admiral.
    Admiral Barrett. Sir, the Customs aircraft that we saw in 
the slide was under our tactical control when they were doing 
that detection and monitoring. And what happens is every time, 
when the suspect target goes back toward South America, we 
notify both Colombia and Venezuela, through our op center to 
their op center, and request permission for overflight. 
Basically, since June 1999, President Chavez has directed that 
we are not granted overflight. So basically the Venezuelans 
work with us in that they launch their F-16s to try to 
interdict the suspects, but it's like a needle in a haystack. 
Unless you have a direct handoff, these are light aircraft, as 
you saw, flying at low altitudes with no lights at night. It is 
almost impossible to interdict them.
    Basically, we also work, as a followup, always, if we get a 
side number of an aircraft and it is a Colombian aircraft, we 
report that to the Colombian Air Force, and maybe that night 
they will land in Venezuela, but within a day or two we've had 
three or four aircraft that popped back into Colombia and the 
Colombian Air Force have seized the aircraft the following day 
or when they come back.
    So we do followup on that, but we have not been successful 
getting permission from Venezuela for overflight clearance, and 
it is a political issue right now.
    Mr. Mica. What has the State Department done as far as 
pursuing this with Venezuela? Are you aware, Ambassador 
Steinberg?
    Ambassador Steinberg. Mr. Chairman, I'm actually not. My 
brief is Haiti. I will communicate the information----
    Mr. Mica. Right. We'll ask that question and ask for a 
response for the record. We'd appreciate it. It is disturbing.
    If you see the pattern of increased flights through that 
corridor, we have a problem.
    My final question is for Customs. This is a pretty dramatic 
array of seizures since February that you've brought before the 
subcommittee today, pretty extensive volume of cocaine and 
fairly sophisticated smuggling operation. Last year, I know we 
were successful in working with you in getting some IN scanning 
equipment. Is there any portable equipment available to do a 
quick check on these hulls? And I understand that that 
equipment will penetrate some 6 inches of metal. Is that being 
used, or do we have that technology available to expedite the 
examination of these? You said you had more than 40 vessels a 
month coming in and out of there?
    Mr. Varrone. My understanding, sir--and I don't have the 
technological background, but we don't have the capability 
right now to be able to scan that vessel in any way, through 
any kind of x-ray, and make those type of detections, 
particularly the ones in the keel that are either at the water 
line or below the water line. So we just have no way of 
detecting that right now.
    Mr. Mica. I think it might be good for us to look at some 
of the R&D or application of some of that technology in this, 
because it looks like it is very difficult to detect. They're 
becoming more sophisticated in their smuggling operations.
    You are, although some of these are for sale in sort of a 
continuous cycle, able to recoup your cost, though, either with 
money seizures or seizures of these assets.
    Mr. Varrone. Well, most of these vessels, as you can see 
from the photographs, are fairly--you know, they're valueless 
to us, because to store them----
    Mr. Mica. But, I mean, you're putting them up for auction 
and you're not recouping then your cost?
    Mr. Varrone. I don't--there's actually a mixed bag. There 
are some that--the newer ones that are online, and clearly the 
older ones, the dilemma is the environmental standards to even 
put them out at sea and make reefs out of them, the costs to 
make them environmentally--to meet the environmental standards 
is prohibitive, so, therefore, we're forced with the auction 
process, and then violators, of course, have the chance to 
purchase them back at low cost.
    Mr. Mica. Admiral, have you talked to General Wilhelm about 
the Blackhawks for DEA? Has that been a subject of discussion?
    Admiral Barrett. No, sir. The assets that SOUTHCOM has been 
involved with are basically what has been requested for Plan 
Colombia. I am not sure that DEA's request has been forwarded 
to SOUTHCOM.
    Mr. Mica. Since Plan Colombia is still under consideration 
and final station, we need to seriously look at this request, 
and also, if we have no capability. A glorified escort service 
is nice, but we need something for an endgame in this whole 
process. And Plan Colombia will deal with certain things in 
Colombia, but we also need to deal with outside that parameter 
by coming from Colombia to be effective.
    Well, finally, I would like to congratulate DEA on the 
Operation Conquistador. In fact, if we could get the staff 
maybe to work with Mr. Gilman and send those countries that 
participated a letter of appreciation for their cooperation. 
It's going to take a multi-national effort and continuous 
exercises like this to go after this, plus some type of 
stability in Haiti, or we will see that country fall to 
corruption. It is well on its way, and, given the poor 
conditions of the country--the poverty, the corruption, we 
could face a disaster there, and it's heading in that 
direction.
    We've also expended an incredible amount of money. I think 
if we took the amount of money and divided it by Haitians, it 
would probably buy them all a condo for what we've put down 
there, so it is extremely frustrating to see those kind of 
resources and not the results we expected.
    There being no further questions of this panel, I'll excuse 
you, but we will be submitting additional questions. We'll 
leave the record open. Thank you.
    Our second panel is one witness, and it is Mr. George 
Fauriol, who is with the Center for Strategic and International 
Studies. I call Mr. Fauriol forward at this time, if the staff 
could please adjust the witness table.
    Again, we would like to welcome this witness, the only 
witness on this second panel, who is with the Center for 
Strategic International Studies.
    Welcome. This is an investigations and oversight 
subcommittee, panel of the House of Representatives. In that 
regard, we do swear in our witnesses.
    [Witness sworn.]
    Mr. Mica. Thank you.
    I'd like to welcome you now this afternoon. Thank you for 
your patience. We have been looking forward to having your 
testimony as part of our record, and I'd like to recognize you 
at this time. Since you are the only panelist, we won't run the 
clock, but we invite you to submit to the subcommittee any 
additional material, data that you think would be pertinent to 
your testimony in this hearing today.
    You are recognized, sir. Welcome.

     STATEMENT OF GEORGE FAURIOL, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Fauriol. Thank you, Mr. Chairman. I did submit a 
statement to the committee.
    Mr. Mica. And without objection, the entire statement will 
be made part of the record.
    Mr. Fauriol. Thank you, sir.
    In my written testimony I argue two general points, which 
in many ways were substantiated by the discussion of the first 
panel this morning--lots of questions and all sorts of partial 
or impartial, difficult answers.
    First observation is I think many assessments of Haiti's 
difficulties are often explained on the basis of a timeline 
that seems to be fluctuating. Comparing the year 2000 with the 
embargo years is probably not the right judgment. The 
comparison should be between the year 2000 and 1994-1995, 
which, after all, is after the return of President Aristide 
back to office and the remarkable international involvement in 
Haiti's democratization and economic reconstruction process.
    There is, related to that, also, I think, a premise which 
is often implied, not mentioned specifically, which is that 
Haiti's narcotics problems, Haiti's democratization problems, 
Haiti's economic problems, in general, are an emerging problem. 
In fact, the title of today's hearing uses that word.
    Again, I think many in official positions have a tendency--
perhaps unwillingly. I'm not accusing them of suggesting 
otherwise--that this is--the issue of emerging drug threat, in 
fact, is an emerging political crisis, an emerging collapse of 
democracy. It didn't begin yesterday. This is something which 
is the product of a cumulative lack of policy direction and 
results over a period of several years--certainly since 1994 or 
1996.
    So two general comments, and I will just leave it at that 
for my oral comments, sir.
    First, I think at this juncture United States policy toward 
Haiti is losing credibility fast. It is losing credibility, I 
think, among Americans, in general, for those who are watching 
this process, and it is probably losing credibility 
internationally. After all, the United States is the lead 
player in Haiti, and I suspect that other countries are 
watching carefully what the United States is doing or not 
doing.
    Most of the priorities stated as anchors to U.S. policy--
Ambassador Steinberg referred to them in passing this morning--
have really undergone limited progress or, again, are worse off 
now than they were in 1995 or 1996. This includes democracy, 
human rights, and institution building, alleviation of poverty. 
I think most observers would argue that Haitians are, at best, 
not better off, and probably worse off now than they were some 
years ago.
    You've heard that the flow of drugs through Haiti is 
worsening rather than improving. There may be some argument 
that the management of the illegal migration and refugee 
movement from Haiti to the United States has become a 
manageable process, but I think that is a very narrow issue to 
judge United States-Haitian relations.
    And overall linking Haiti up with the region's 
democratization and economic growth trends has obviously been 
disappointing.
    My second general point is that the Haitian Government 
leadership, in the context of this environment, is, I think I 
would argue, acting generally in bad faith in its relationship 
with the United States and the international community, and I 
think, arguably, bears considerable responsibility for Haiti's 
current problems. After all, they were elected by the Haitian 
people in 1995 and, therefore, should bear some of the 
responsibility for the current stalemate, including the 
political stalemate which, again, doesn't date back to early 
March, it dates back to the elections of April 1997, as well as 
the collapse, if you will, of Haitian governance in 1998--in 
1999.
    In effect, United States policy, as well as Haitian 
Government behavior, should be held to a higher standard. This 
applies to both the democratization process, as well as to the 
drug trade. We are here in April 2000, and published reports--
much of it, in fact, coming from United States Government 
sources--have been documenting the worsening situation in Haiti 
for several years.
    In other words, the current crisis circumstances in United 
States-Haitian relations should not be a surprise to anyone and 
only underscores, I think, the unwillingness of our own 
administration to come clean with the failings of policy toward 
Haiti since 1995.
    As you, yourself, noted in your opening statement, as 
Chairman Gilman also noted, considerable resources have been 
spent. Arguably even almost more importantly than that, 
considerable energy, enthusiasm, and prestige of the United 
States have been spent in this enterprise, and ultimately there 
is very little to show for it.
    Let me just add one or two additional comments, if I may, 
sir.
    In the last several days, the last 10 days to 2 weeks, the 
situation has worsened considerably in Haiti, and I think this 
is an important backdrop, if you will, to any consideration of 
the narcotics question, as well as, more broadly, the 
democratization process.
    As already noted, the offices of opposition parties have 
been burned down, and not only burned down, but in several 
other cases other party headquarters have been attacked. There 
seems to be an orchestrated set of attacks on media outlets. 
Beyond the assassination of a well-known radio station owner 
and political commentator, there have been attacks on a number 
of other radio stations in the last several days.
    The head of the Chamber of Commerce, many in the business 
community associated with last year's so-called ``May 28th call 
for democratic renewal'' led by the private sector, and many of 
those have now fled Haiti.
    I note this in part because there is still a discussion of 
whether Haiti can have elections some time over the next 60 
days, and I am increasingly skeptical that the overall security 
environment and certainly political process is likely to 
ultimately make that election not only a success, but let alone 
even possible under present circumstances.
    Finally, in my written statement I also note certain degree 
of nervousness about some of the proposals that are beginning 
to appear that suggest a revisiting of formal sanctions, 
economic sanctions toward Haiti, specifically those being 
discussed, for example, through the Organization of American 
States.
    I am nervous for two reasons. One of them, the last time 
that those sanctions were used in the early 1990's, it took not 
only several years for Haiti to recover from it, but it also 
took the international community, including the United States, 
in particular, considerable military, diplomatic, and economic 
resources to ultimately come out of that particular process. 
Therefore, I am skeptical that this should be really discussed 
so early in this crisis.
    Second, I am also skeptical because I wonder whether the 
administration, itself, has actually an integrated strategy 
regarding these multiple issues that are our part of the 
Haitian agenda--democratization, narcotics, judicial reform, 
and several other key aspects of the challenge that we face in 
Haiti.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Fauriol follows:]

    [GRAPHIC] [TIFF OMITTED] T0438.050
    
    [GRAPHIC] [TIFF OMITTED] T0438.051
    
    [GRAPHIC] [TIFF OMITTED] T0438.052
    
    [GRAPHIC] [TIFF OMITTED] T0438.053
    
    [GRAPHIC] [TIFF OMITTED] T0438.054
    
    Mr. Mica. I'm pleased that you could join us today to give 
us your perspective. I think you very astutely analyze this 
situation that we find ourselves in, and it didn't occur just 
today. It has been something of a series of bad policy 
decisions from the very beginning, probably since 1994.
    Personally, I strongly oppose the imposition of the 
economic embargo, which did an incredible amount of damage. 
Although you said it took several years to recover, I don't 
think they've recovered yet, having been involved in trying to 
help develop business there in the private sector. But for the 
fall of the government, we now have almost the entire island 
sort of left to a welfare state and the international donors 
keeping people alive at the lowest common denominator level. 
Business has fled. Very little business has returned. The 
instability is almost impossible to overcome. I'm not sure how 
you dig yourself out of this situation.
    That really is my question. How would you even begin to put 
the pieces to this puzzle back together when we've had one 
disastrous policy initiative, failure of assistance programs? 
Where do you start? Do you have any ideas?
    Mr. Fauriol. Two or three ideas, sir, some here and some in 
Haiti.
    First, I think there is a need--this may sound symbolic, 
but I think it is important--there is a need to have Haiti's 
most senior political leadership--in specific, the President of 
the country and some of his immediate associates--I think 
former President Aristide should be counted in that group, 
also--actually state formally, publicly in Haiti--not in Miami, 
not in New York, not in Washington, not elsewhere--to Haitians 
that they actually are behind a credible open political process 
and elections that will involve the entire Haitian political 
community.
    I'm not suggesting that these statements may not have been 
said in the past, but I am struck by the lack of involvement 
and profile and enthusiasm that the Haitian political 
leadership is demonstrating in the middle of a crisis which has 
been ongoing now for several years.
    I would assume that that message has been conveyed by our 
own leadership, but clearly that message hasn't had much 
impact; yet, I think this is really in some ways a marker. 
Unless that happens, Haiti in some ways may be left to its own 
devices, and that may be part of my second answer, which is, 
unless there is a clarification of Haitian political intentions 
regarding the democratization process and the election process 
fairly soon, I'm not quite sure exactly how one can, in fact, 
sustain a relationship with a government that is uncooperative 
with not only the United States but other governments, and 
let's not forget also other international financial 
institutions. The World Bank and others have more or less 
conveyed their dissatisfaction with Haitian economic management 
now for several years in a row.
    So I guess my second answer is not a very satisfactory one 
for you, sir, but is, in fact, a potential call for some 
thinking that, in effect, is going to look at Haiti as an 
uncooperative nation, but one that doesn't imply a series of 
sort of an open-ended formal economic sanctions or other kinds 
of sanctions, but instead treats Haiti on a case-by-case basis.
    We identify our interests and we try to work with Haiti as 
best as we can in the narrow focus of our interests. Narcotics 
may, for example, be one area, even though we don't seem to be 
very successful at it.
    That may mean that in some areas we may not be able to work 
with Haiti at all, including support of what is clearly a 
flawed election process.
    It may, however, mean that we should be able or might be 
able to continue continuing assistance and support and working 
with non-governmental institutions in Haiti, or trying to 
encourage the private sector to remain alive in Haiti, although 
even that doesn't look very encouraging under present 
circumstances.
    So my second answer really is a selective identification of 
what the United States ultimately thinks is important, and 
simply to focus on those issues.
    Mr. Mica. Well, we've also been unsuccessful in trying to 
build some of the institutions. The judicial institutions, the 
law enforcement are two abysmal failures. We have probably as 
much disruption, killing, lack of enforcement as they had prior 
to 1994, and now we have a situation where we have a breakdown 
of the judicial systems that deals with crime, corruption, drug 
trafficking, prosecutorial end of any of this.
    What went wrong? And any ideas as to how we correct this 
and move forward after spending a quarter of a billion dollars 
just in that area?
    Mr. Fauriol. I think it was either in one of your questions 
or perhaps in the answers from the first panel. There was a 
reference to the vetting process. I think in some ways that may 
be the----
    Mr. Mica. Important.
    Mr. Fauriol [continuing]. Important, and the most important 
issue, and that happened early on in the process. I'm not an 
expert in this issue, but clearly----
    Mr. Mica. Sounds like we need to vet some of our own 
vendors and contractors when we have a disbarred attorney that 
was charged with defrauding the U.S. Government. We have 
someone who doesn't appear to have the credentials to be 
leading a program of this magnitude or complexity. Something is 
wrong.
    Mr. Fauriol. It is a vetting process in the contracting 
world of how things were done in Haiti. It's also vetting----
    Mr. Mica. How about vetting the Haitians involved in this?
    Mr. Fauriol. Right.
    Mr. Mica. But----
    Mr. Fauriol. After 1996 into 1997, the impression I got was 
that the entry into the recruitment process into the Haitian 
National Police became politicized. That should have been early 
on a marker for our own officials that things were getting off 
the rails. What is remarkable is that 3 or 4 years later we are 
finally coming to that admission, and I think the damage has 
now been done.
    I don't see, frankly, a lot of future in the Haitian 
National Police in the present circumstances.
    In my written statement, I mention that, in fact, it is an 
evaporating police force. It nominally should have probably had 
a force of somewhere around 6,000. I argue that it is probably 
close to 4,000. I've heard lower figures than that. I don't 
think anyone actually knows. We don't know. The Haitians don't 
know. It could be as low as maybe 2,500.
    Mr. Mica. Well, we're still going to be involved in Haiti, 
and if you were crafting an assistance program to Haiti, what 
would be your priorities and how would you approach from this 
point forward saying that we could get some free elections at 
some point?
    Mr. Fauriol. I would start again, maybe all over, with the 
electoral assistance program. In fact, one of the suggestions 
that I make in my written statement is that there would be some 
form of an assessment of what we've done and, quite frankly, 
the institutions that have been involved in that process have 
some lessons learned in that process.
    Second, I think some of that assistance--although I realize 
there may be some restrictions or legislative limitations, some 
of that assistance perhaps should be more broadly distributed 
to a broader series of institutions in Haiti that are involved 
in civil society. Political parties, various kinds of civil 
society organizations and the media, the private sector, who I 
think has fought a good battle, overall, in Haiti--not 
perfectly, but has been active in recent years in support of 
the democratic process--should also be encouraged, and there 
are probably mechanisms and institutional arrangements that the 
United States can work with that do not purposely bypass the 
Government, but, under present circumstances, at least provide 
support to institutions that have committed themselves openly 
to the democratic process.
    Second--and this is maybe easy for me to say as an 
outsider, and maybe, as I describe it in my written statement 
as sort of inside the beltway kind of comment, there must be a 
better way of interacting with Haiti than what we have under 
present circumstances.
    I realize that there is complexity in the American 
government, but this is an ultimately hopelessly confusing, 
multi-layered series of messengers conveying priorities and 
ideas that supposedly come from the U.S. Government, and I 
think it allows the Haitian local leadership to play off one 
message against another, one perception off another.
    I would administratively--but I think it has policy 
implications--streamline so that there is, in fact, a central 
senior corps voice that speaks on behalf of United States/
Haitian relations, rather than what we have now, which are 
multiple avenues of interaction.
    Third, I think there is, in some ways, a public diplomacy 
role. I realize that that word maybe conveys messages of the 
1980's, but those were actually successful messages, in a way--
that is, in a context of United States-Haitian relations, I 
think, an important message that both the executive branch and, 
to some degree, I think Congress can play in conveying to the 
American people that this is, as I think you implied in your 
question, not a passing issue for the United States. It is a 
permanent part of our foreign policy agenda, which has domestic 
policy implications, and it should be viewed, in effect, as 
sort of a public diplomacy kind of campaign involving every 
opportunity for every public official in the U.S. Government to 
underscore the importance of a stable and viable Haiti to the 
United States and to a Haitian-American community which is also 
significant here in the United States.
    I would at least begin, if you will, with those general 
markers which, frankly, at this point are lacking.
    Mr. Mica. Well, let me mention some areas, and I'd just 
like your candid assessment as to where you think we are versus 
1994 vis-a-vis progress in Haiti as far as democracy, 
democratic institutions.
    Mr. Fauriol. The overall climate has deteriorated since 
1994-1995.
    Mr. Mica. Human rights?
    Mr. Fauriol. The level of violence and what could be 
described as political attacks is on the increase in comparison 
to 1994, certainly 1995.
    Mr. Mica. And poverty, the economic conditions of the 
people of the country, your estimate?
    Mr. Fauriol. The numbers that I've seen, for whatever it is 
worth--although much of this doesn't really affect the average 
Haitian--the per capita is somewhere in the $250 range a year. 
That has remained more or less stable in the last several 
years.
    I think, overall, most Haitians are certainly, at best, no 
better and probably worse off, and particularly when compared 
to the expectations I think that many Haitians, rightly so, had 
after the return of democracy, at least of governance, 
democratic governance, to Haiti after 1995.
    Mr. Mica. Finally, I'm not sure if you have any expertise 
or specific knowledge in this area, but the recent attacks that 
we've seen on the media, the opposition, and others, are there 
any links, to your knowledge, of drug traffickers involved in 
it?
    Mr. Fauriol. I don't have any----
    Mr. Mica. Specific knowledge?
    Mr. Fauriol [continuing]. Particular evidence. My only 
comment is that I see a pattern, if you will, a pattern of 
destabilization, of what some call ``decapitalization,'' if you 
will, of civil society. People are being essentially scared 
away from participating in a process. Whether they are 
journalists, politicians, business leaders, or simply the 
average citizen, that constituency, which is basically much of 
Haiti, is being scared away, and clearly some of it has to come 
from a pervasive environment which allows not only drug 
trafficking, but overall sort of contraband, illicit activity, 
criminal organizations to run rampant in and out of Haiti, and 
that clearly sets, if you will, a tone where these kinds of 
incidents become not only a regular occurrence, but I would 
argue the most dangerous feature of this assassination is that 
basically no one can pinpoint their finger as to who is 
responsible for this particular action. That is, in some ways, 
a clear indication of a situation which is on the verge of 
being out of control.
    Mr. Mica. Well, as you can tell, we have some serious 
concerns about what has taken place as far as our policy, as 
far as administration of programs, as far as effectiveness of 
U.S. attempts to aid this country, and particularly the focus 
of this hearing today is now the increasing corruption, 
violence brought about by drug trafficking and total 
deterioration of the situation in that country.
    We've expended a tremendous amount of American resources or 
international resources. As you said, credibility is stretched 
beyond almost the point of no return here. It has become the 
basketcase now of the entire hemisphere, and probably one of 
the saddest chapters of any country in the world, particularly 
given the resources that have been poured in.
    We do appreciate your perspective, your expertise, and your 
testimony today.
    With that, I'll excuse you.
    There being no further business to come before this 
subcommittee at this time, upon unanimous request, we will 
leave the record open for 2 weeks and submit additional 
testimony, questions to the witnesses, and leave the record 
open for that period of time.
    This hearing of the Subcommittee on Criminal Justice, Drug 
Policy, and Human Resources is adjourned.
    Mr. Fauriol. Thank you.
    [Whereupon, at 12:44 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0438.055

[GRAPHIC] [TIFF OMITTED] T0438.056

[GRAPHIC] [TIFF OMITTED] T0438.057

[GRAPHIC] [TIFF OMITTED] T0438.058

[GRAPHIC] [TIFF OMITTED] T0438.059

[GRAPHIC] [TIFF OMITTED] T0438.060

[GRAPHIC] [TIFF OMITTED] T0438.061

[GRAPHIC] [TIFF OMITTED] T0438.062

[GRAPHIC] [TIFF OMITTED] T0438.063

[GRAPHIC] [TIFF OMITTED] T0438.064

[GRAPHIC] [TIFF OMITTED] T0438.065

[GRAPHIC] [TIFF OMITTED] T0438.066

[GRAPHIC] [TIFF OMITTED] T0438.067

[GRAPHIC] [TIFF OMITTED] T0438.068

[GRAPHIC] [TIFF OMITTED] T0438.069

[GRAPHIC] [TIFF OMITTED] T0438.070

[GRAPHIC] [TIFF OMITTED] T0438.071

[GRAPHIC] [TIFF OMITTED] T0438.072

[GRAPHIC] [TIFF OMITTED] T0438.073

[GRAPHIC] [TIFF OMITTED] T0438.074

[GRAPHIC] [TIFF OMITTED] T0438.075

[GRAPHIC] [TIFF OMITTED] T0438.076

[GRAPHIC] [TIFF OMITTED] T0438.077

[GRAPHIC] [TIFF OMITTED] T0438.078

[GRAPHIC] [TIFF OMITTED] T0438.079

[GRAPHIC] [TIFF OMITTED] T0438.080

[GRAPHIC] [TIFF OMITTED] T0438.081

[GRAPHIC] [TIFF OMITTED] T0438.082

[GRAPHIC] [TIFF OMITTED] T0438.083

[GRAPHIC] [TIFF OMITTED] T0438.084

[GRAPHIC] [TIFF OMITTED] T0438.085

[GRAPHIC] [TIFF OMITTED] T0438.086

[GRAPHIC] [TIFF OMITTED] T0438.087

[GRAPHIC] [TIFF OMITTED] T0438.088

[GRAPHIC] [TIFF OMITTED] T0438.089

[GRAPHIC] [TIFF OMITTED] T0438.090

[GRAPHIC] [TIFF OMITTED] T0438.091


</pre></body></html>
